<html>
<title> - LESSONS FROM FORT HOOD: IMPROVING OUR ABILITY TO CONNECT THE DOTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   LESSONS FROM FORT HOOD: IMPROVING OUR ABILITY TO CONNECT THE DOTS 

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,
                     INVESTIGATIONS, AND MANAGEMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 14, 2012

                               __________

                           Serial No. 112-118

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                        U.S. GOVERNMENT PRINTING OFFICE 

81-127 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     9

                               WITNESSES
                                Panel I

Mr. Douglas E. Winter, Deputy Chair, The William H. Webster 
  Commission:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Ms. Ishrad Manji, Director, Moral Courage Project, New York 
  University:
  Oral Statement.................................................    20
  Prepared Statement.............................................    22
Mr. Michael E. Leiter, Former Director of the National 
  Counterterrorism Center:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25

                                Panel II

Mr. Kshemendra Paul, Program Manager, Information Sharing 
  Environment, Office of the Director of National Intelligence:
  Oral Statement.................................................    42
  Prepared Statement.............................................    43

                             FOR THE RECORD

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management:
  Statement of William H. Webster, Chair, The William H. Webster 
    Commission...................................................    28


   LESSONS FROM FORT HOOD: IMPROVING OUR ABILITY TO CONNECT THE DOTS

                              ----------                              


                       Friday, September 14, 2012

             U.S. House of Representatives,
    Subcommittee on Oversight, Investigations, and 
                                        Management,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:12 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the subcommittee] presiding.
    Present: Representatives McCaul, Duncan, Keating, and 
Davis.
    Mr. McCaul. The committee will come to order.
    The purpose of this hearing is to examine information 
sharing across relevant intelligence and law enforcement 
agencies, specifically as it pertains to the report issued by 
the Webster Commission, which focused on the Fort Hood attack. 
As I mentioned, Mr. Winter, let me applaud you for your great 
work, and Mr. Webster, on that report.
    I now recognize myself for an opening statement.
    Before we begin today's hearing, we should pay tribute to 
our brave diplomats who serve our Nation abroad. Unfortunately, 
one of our ambassadors, Chris Stevens, and three of his 
colleagues were killed on Tuesday, the 11th anniversary of the 
9/11 attacks on the United States. These events and others 
should remind every American that we are a Nation under siege 
and must remain vigilant, doing all that we can to uncover and 
take action against terrorist plots, whether the danger 
confronts us here in the United States or abroad.
    In June 2009, FBI Director Robert Mueller acknowledged the 
immense challenge facing the Bureau, stating, ``It is not 
sufficient for us as an organization to respond to a terrorist 
attack after it has occurred. It is important for us as an 
organization to develop the intelligence to anticipate a 
terrorist attack, developing intelligence, developing facts. In 
the past, we looked at collecting facts for the courtroom. We 
now have to think of ourselves as gathering facts and painting 
a picture of a particular threat, understanding the risk and 
moving to reduce that risk.'' I couldn't agree more with the 
Director's statement.
    Then on November 5, 2009, a gunman walked into the Soldier 
Readiness Center at Fort Hood, Texas, and shouted the classic 
jihadist term ``Allahu Akbar'' and opened fire on unarmed 
soldiers and civilians. He killed 13 and wounded 42 others. 
This was the most horrific terrorist attack on U.S. soil since 
9/11.
    Today, we will examine the facts of the Fort Hood case as 
we know them to better understand how these facts that seem so 
obviously alarming now were so missed by seasoned professionals 
and to understand how the FBI and intelligence community as a 
whole can benefit from the lessons learned from this tragedy at 
Fort Hood.
    The suspect in the Fort Hood shooting is Major Nidal Hasan, 
a commissioned officer in the United States Army, who openly 
communicated with the Muslim cleric and No. 2 terrorist Anwar 
al-Awlaki. Hasan characterized himself as a soldier of Allah 
and who was assigned the task of counseling our soldiers coming 
home from the battlefield.
    Let's step back in time and examine the facts.
    On May 31, 2009, Hasan sent one of several emails to al-
Awlaki, one of the ones that I found most disturbing. The email 
read in part, ``I heard a speaker defending suicide bombings as 
permissible. He contends that suicide is permissible in certain 
cases. He defines suicide as one who purposely takes his own 
life but insists that the important issue is your intention. 
Then he compares this to a soldier who sneaks into an enemy 
camp during dinner and detonates his suicide vest to prevent an 
attack that is known to be planned the following day. The 
suicide bomber's intention is to kill numerous soldiers to 
prevent the attack to save his fellow people the following day. 
He is successful. His intention was to save his people, his 
fellow soldiers, and the strategy was to sacrifice his life. 
This logic seems to make sense to me,'' says Mr. Hasan.
    This email telegraphs almost precisely what happened that 
fateful day. This email was in the hands of the FBI before the 
attack.
    In another email to Anwar al-Awlaki, Hasan asked, ``Please 
keep me in your Rolodex in case you find me useful, and please 
feel free to call me collect.''
    So in December, 2008, the FBI's San Diego field office 
intercepted two emails from Hasan and al-Awlaki and identified 
the email as a product of interest. Over the course of the next 
several months, the San Diego field office and the Washington 
field office would exchange emails about how aggressively to 
investigate the Hasan lead.
    In June 2009, Washington sent the following email to San 
Diego: ``Given the context of his military and medical research 
and the content of his, to date, unanswered email messages from 
al-Awlaki, WFO does not currently assess Hasan to be involved 
in terrorist activities.''
    The FBI agent in San Diego described Washington's inquiry 
into Major Hasan as ``slim.''
    The case was dropped until November 5, when the media began 
circulating reports of the massacre. At that time, the San 
Diego agents knew exactly who the perpetrator was, saying, 
``You know who that is. That's our boy.''
    Years before the FBI knew of Nidal Hasan, the Army major 
was being noticed by his superiors and colleagues at Walter 
Reed Army Medical Center, where he was a resident in the 
psychiatric program being trained to care for soldiers coming 
home from war. Two fellow officers described Hasan as a, 
``ticking time bomb.''
    During his medical residency and post-residency fellowship, 
Hasan demonstrated evidence of violent extremism. On several 
occasions he presented sympathetic views towards a radical 
Islam view and wrote papers defending Osama bin Laden, actions 
that enraged his classmates and professors. Yet no action was 
taken. Instead, Major Hasan was rewarded for his work and 
promoted.
    His officer evaluation reports state, ``Among the better 
disaster and psychiatry fellows to have completed the master of 
public health at the Uniformed Services University. He has a 
keen interest in Islamic culture and faith and has shown 
capacity to contribute to our psychological understanding of 
Islamic nationalism and how it may relate to events of National 
security and Army interest in the Middle East and Asia.''
    These officer evaluation reports were inaccurate. These 
were all flags, none of which were acted upon. So many flags in 
this case. These reports did not present the facts about 
Hasan's character. In reality, Hasan was barely a competent 
psychiatrist, whose radical views alarmed his colleagues; and 
the irony to me is this is the very man who was to counsel our 
soldiers coming back from the field of battle.
    In the Hasan case, both the FBI and DOD had important 
pieces to the puzzle that, if put together, maybe just could 
have possibly saved the lives of 12 soldiers and one civilian.
    I want to personally express my sympathy to those impacted 
by the terrorist attack at Fort Hood. We should treat those who 
died and who were wounded as brave Americans and award each of 
them a Purple Heart medal.
    When I spoke with the victims' families at the Fort Hood 
memorial service, I saw first-hand the outrage and loss they 
felt, and I wanted to help them find answers. But I want these 
answers to serve as a catalyst to effect change and improve our 
intelligence community as a whole so we can stop these attacks 
before they occur. We have had great successes. We do look 
forward to hearing from the witnesses' testimonies to 
understand what went wrong in this case and how we can prevent 
such a tragedy from occurring in the future.
    With that, I now recognize the Ranking Member, the 
gentleman from Massachusetts, Mr. Keating.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           September 14, 2012
    Before we begin today's hearing we should pay tribute to our brave 
diplomats who serve our Nation abroad. Unfortunately one of 
Ambassadors, Christopher Stevens, and three of his colleagues were 
killed on Wednesday, the eleventh anniversary of the 9/11 attacks on 
the United States. These events, and others, should remind every 
American that we are a Nation under siege and must remain vigilant 
doing all we can to uncover and take action against terrorists, whether 
the danger confronts us here in the United States or abroad.
    In June 2009, Federal Bureau of Investigation (FBI) Director Robert 
Mueller acknowledged the immense challenges facing the Bureau stating:

``The stages we are going through now I call mind-set changes. By mind-
set I mean understanding that it is not sufficient for us as an 
organization to respond to a terrorist attack after it has occurred. It 
is important for us as an organization to develop the intelligence to 
anticipate a terrorist attack. Developing intelligence is developing 
facts. In the past we looked at collecting facts for the courtroom. We 
now have to think of ourselves as gathering facts and painting a 
picture of a particular threat, understanding the risk and moving to 
reduce that risk.''

    On November 5, 2009, a gunman walked into the Soldier Readiness 
Center at Fort Hood, Texas, shouted ``Allah Akbar,'' and opened fire on 
unarmed personnel. He killed 13 and wounded 42 others. This was the 
most horrific terrorist attack on U.S. soil since 9/11.
    Today we will examine the facts of the Fort Hood case as we now 
know them--to better understand how these facts that seem so obviously 
alarming now were missed by seasoned professionals--and to understand 
how the FBI and intelligence community as a whole can benefit from the 
lessons learned from the tragedy at Fort Hood.
    The suspect in the Fort Hood shootings is Major Nidal Malik Hasan, 
a commissioned officer in the United States Army, who openly 
communicated with the terrorist Anwar al-Awlaki, who characterized 
himself as a soldier of Allah, and who was assigned the task of 
counseling our soldiers coming home from the battlefield. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Let's step back in time and examine the facts. On May 31, 2009, 
Hasan sent one of several emails to the radicalized Muslim cleric Anwar 
al-Alwaki. The email read:

``I heard a speaker defending suicide bombings as permissible . . . He 
contends that suicide is permissible in certain cases . . . He defines 
suicide as one who purposely takes his own life but insists that the 
important issue is your intention . . .  Then he compares this to a 
soldier who sneaks into an enemy camp during dinner and detonates his 
suicide vest to prevent an attack that is known to be planned the 
following day. The suicide bomber's intention is to kill numerous 
soldiers to prevent the attack to save his fellow people the following 
day. He is successful. His intention was to save his people/fellow 
soldiers and the strategy was to sacrifice his life. The logic seems to 
make sense to me . . . ''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In another email to al-Awlaki, Hasan asks to ``Please keep me in 
your Rolodex in case you find me useful and feel free to call me 
collect.''
    In December 2008, the FBI San Diego Field Office intercepted two 
emails from Hasan to al-Awlaki and identified the email as ``Product of 
Interest.'' The lead was sent to the Washington field office because 
Hasan resided in the area. Over the course of the next several months 
the San Diego field office and the Washington field office would 
exchange emails about how aggressively to investigate the Hasan lead. 
In June 2009, the Washington field office sent the following email to 
the San Diego field office:

``Due to [redacted] HASAN'S email contact with AULAQI, HASAN was not 
contacted, nor were his command officials. Given the context of his 
military/medical research and the content of his, to date unanswered 
[from AULAQI] email messages, WFO does not currently assess HASAN to be 
involved in terrorist activities.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The FBI agent in San Diego described Washington's inquiry into 
Hasan ``slim''. The case was dropped until on November 5 when the media 
began circulating reports of the massacre--the San Diego agents knew 
immediately saying, ``you know who that is, that's our boy.''
    Years before the FBI knew of Nidal Hasan the Army Major was being 
noticed by his superiors and colleagues at Walter Reed Army Medical 
Center where he was a resident in the psychiatric program being trained 
to care for soldiers coming home from war. Two fellow officers 
described Hasan as a ``ticking time bomb''. During his medical 
residency and post-residency fellowship Hasan demonstrated evidence of 
violent extremism. On several occasions, he presented sympathetic views 
towards radical Islam and wrote papers defending Osama bin Laden--
actions that enraged his classmates and professors. Yet no action was 
taken.
    Instead, Major Hasan was rewarded for his work and promoted. His 
officer evaluation reports state:

`` . . . among the better disaster and psychiatry fellows to have 
completed the Master of Public Health at the Uniformed Services 
University''
`` . . . keen interest in Islamic culture and faith and has shown 
capacity to contribute to our psychological understanding of Islamic 
nationalism and how it may relate to event of National security and 
Army interest in the Middle East and Asia.''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    These officer evaluation reports were inaccurate. They did not 
present the facts about Hasan's character. In reality, Hasan was barely 
a competent psychiatrist whose radical views alarmed his colleagues.
    In the Hasan case, both the FBI and DOD had important pieces to the 
puzzle that if put together could have developed the picture more 
accurately and in my opinion, would've prompted a more thorough 
inquiry. Of course, we don't know if that could've changed the events 
at Fort Hood but we should strive to improve, for the victims and their 
families.
    I want to personally express my sympathy to those impacted by the 
terrorist attack at Fort Hood. We should treat those who died and were 
wounded as brave Americans and award each a Purple Heart Medal.
    When I spoke with the victims' families at the Fort Hood Memorial 
service, I saw first-hand the outrage and loss they felt and I want to 
help them find answers. But I want the answers to serve as a catalyst 
to affect change and improve our intelligence community as a whole so 
we can stop these attacks before they occur.
    We look forward to hearing the witness testimonies to better 
understand what went wrong and how we can prevent such tragedies in the 
future.

    Mr. Keating. Thank you, Mr. Chairman.
    As we all pause to think of the families of the four 
Americans who were lost just this week in Libya and keep their 
families in our prayers and thoughts, it is significant that we 
come here today in dedication to find every piece of 
information we can find that will determine how better to keep 
the Americans that serve us so well safe as they try to keep us 
safe. So with that, Mr. Chairman, I thank you for holding 
today's hearing.
    Three years ago, on November 5, 2009, the Nation was 
shocked by the mass shooting that occurred at the Army 
Deployment Center located at Fort Hood, Texas. During the 
shooting, 13 lives were lost, 43 individuals were wounded, and 
the lives of so many others were forever changed.
    It later became evident that the warning signs existed well 
before the tragedy and should have, at a minimum, been further 
investigated. Both the FBI and the Department of Defense had 
knowledge of Major Hasan's potential as a threat to homeland 
security.
    The actions leading up to the massacre by Major Nidal Malik 
Hasan, the sole suspect in the murders, should have 
unequivocally sparked a greater concern on the part of 
officials. Yet dots were not connected, information was not 
shared, and the lack of formal policies and protocols led to a 
colossal breakdown in communication.
    In December, 2009, at the direction of the FBI director, 
the Webster Commission was created to examine the events that 
occurred before and after the shootings. The Final Report of 
the William H. Webster Commission on the FBI, Counterterrorism 
Intelligence, and the Events at Fort Hood Texas, which 
represent the work of the Commission, was released in July 
2012.
    The crucial recommendation mirrored in both the Webster 
Commission's report and the 9/11 Commission's report focused on 
the importance of information sharing to our Nation's security 
and the need to do away with a culture of territorialism that 
existed between the various levels of Federal, State, and local 
authorities. As a former Massachusetts district attorney 
myself, I was once at the bottom rung of the information-
sharing ladder and understand the consequences of inadequate 
lines of communication. For this reason, my first legislative 
measure signed into law was an amendment to the intelligence 
authorization that encouraged Federal authorities to utilize 
fusion centers and enlist all of the intelligence capabilities, 
including that of law enforcement, to secure our homeland.
    Since then, I have been following the progress of the 
recommendations set forth in the 9/11 Commission, and now the 
Webster Commission, in regard to intelligence sharing and am 
pleased that the administration has indicated that effective 
information sharing and access throughout the Government is a 
top priority.
    This all being said, I am interested in hearing from both 
our witness panels today on their thoughts and their own 
recommendations.
    With that, I yield back the balance of my time.
    [The statement of Ranking Member Keating follows:]
              Statement of Ranking Member William Keating
                           September 14, 2012
    Three years ago, on November 5, 2009, the Nation was shocked by the 
mass shooting that occurred at the Army deployment center located at 
Ft. Hood, Texas. During the shooting, 13 lives were lost, 43 
individuals were wounded, and the lives of so many others were forever 
changed. It later became evident that warning signs existed well before 
this tragedy and should have, at a minimum, been further investigated.
    Both the FBI and the DOD had knowledge of Major Hasan's potential 
as a threat to homeland security. The actions leading up to the 
massacre by Major Nidal Malik Hasan--the sole suspect in the murders--
should have unequivocally sparked greater concern.
    Yet, dots were not connected, information was not shared, and the 
lack of formal policies and protocols led to a colossal breakdown in 
communication.
    In December 2009, at the direction of the FBI Director, the Webster 
Commission was created to examine the events occurring before and after 
the shootings.
    The Final Report of the William H. Webster Commission on the FBI, 
Counterterrorism Intelligence, and the Events at Fort Hood, Texas which 
represents the work of the Commission was released in July 2012.
    The crucial recommendation mirrored in both the Webster 
Commission's report and the 9/11 Commission's report focused on the 
importance of information-sharing to our Nation's security and need to 
do away with the culture of territorialism that existed between the 
various levels of Federal, State, and local authorities.
    As a former Massachusetts District Attorney, I was once on the 
bottom rung of the information-sharing ladder and understand the 
consequences of inadequate lines of communication.
    For this reason, my first legislative measure that was signed into 
law was an amendment to the Intelligence Authorization that encouraged 
Federal authorities to utilize fusion centers and enlist all of the 
intelligence capabilities--including that of law enforcement--to secure 
our homeland.
    Since then I have been following the progress of the 
recommendations set forth by the 9/11 Commission, and now the Webster 
Commission, in regard to intelligence-sharing and am pleased that the 
administration has indicated that effective information sharing and 
access throughout the Government is a top priority. This all being 
said, I am interested to hear from both witness panels today on their 
thoughts and their own recommendations.

    Mr. McCaul. I thank the Ranking Member. Members are 
reminded that additional statements may be submitted for the 
record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           September 14, 2012
    Three days ago, we marked the eleventh anniversary of the September 
11, 2001 terrorist attacks.
    That tragedy left us with a number of valuable lessons. As the 9/11 
Commission found, Government agencies charged with collecting 
intelligence and law enforcement data did not ``connect the dots'' that 
could have revealed that attacks of the proportion launched on 9/11 
were under way.
    Since that time, the importance of horizontal information sharing 
among Federal agencies and vertical information sharing from Federal 
agencies to State, local, and Tribal entities has been weaved into our 
homeland security efforts.
    However, on November 5, 2009, the tragic events that occurred at 
the Army base located in Fort Hood, Texas, once again revealed that the 
failure to connect the dots can lead to disastrous results.
    On that day, 13 people lost their lives and 43 individuals were 
wounded at the hand of a single gunman who was on the separate radars 
of the FBI and the DOD. Unfortunately, that information was not 
coordinated.
    In some of the reports and the rhetoric following the Ft. Hood 
shooting, there were claims that the failure to connect the dots was 
based on ``political correctness.''
    I strongly disagree. The information-sharing challenges that we 
faced then and continue to face now are more grounded in protecting 
turf than being timid.
    To conclude that the source of the missteps was based on the 
religion of the perpetrator takes us backwards and takes our eyes off 
the ball.
    Instead, our focus should be on ensuring that communication 
systems, information technology, training, and protocols are improved 
Government-wide.
    And most importantly, removing stovepipes.
    The Fort Hood shooting occurred nearly 3 years ago. Fortunately, 
since that time, information sharing has improved and we have the death 
of Osama bin Laden, the conviction of the New York City subway bomber, 
and other success stories as proof of this joint effort.

    Mr. McCaul. We are pleased to have a very distinguished 
panel of witnesses here today, and I would like to introduce 
them.
    First, we have Mr. Douglas Winter. He is Deputy Chair and 
Editor-in-Chief of the William Webster Commission. He is a 
counsel and former partner in the law firm of Bryan Cave, where 
he is the head of the firm's electronic discovery unit. He 
served as law clerk to Judge William Webster on the U.S. Court 
of Appeals for the 8th Circuit. Also served as a captain in the 
U.S. Army and is a graduate of the U.S. Army Judge Advocate 
General school.
    Second, we have Ms. Irshad Manji. She is the Director of 
Moral Courage Project at New York University's Wagner Research 
Center for Leadership in Action. As Director, she equips 
students to become global citizens by speaking truth to power 
in their communities. As a reformist Muslim, Ms. Manji has 
written multiple books on the trends that are changing the 
world of Islam.
    It is so great to have you here today. Thank you for being 
here.
    Finally, I would say my colleague and friend from 
Department of Justice, Mr. Leiter. Michael Leiter is the Senior 
Counsel to the Chief Executive Officer of Palantir Technologies 
and the former Director of the National Counterterrorism 
Center.
    It is great to have you here today as well, Mr. Leiter.
    The Chairman now recognizes Mr. Winter for his testimony.

 STATEMENT OF DOUGLAS E. WINTER, DEPUTY CHAIR, THE WILLIAM H. 
                       WEBSTER COMMISSION

    Mr. Winter. Thank you.
    Good morning, Chairman McCaul, Ranking Member Keating, and 
Members of the subcommittee. I am joined today by Adrian Steel, 
the commissioner who was responsible as governing authorities 
liaison with the Department of Justice and the FBI, and also 
staff member George Murphy.
    It is impossible in the time allotted to describe the 
lengthy and detailed investigation that is set forth in the 
final report. Director Mueller's terms of reference were 
extraordinary in scope.
    The factual background, as you know, is intricate and 
complex. There is no simple calculus of cause and effect here. 
The mistakes and shortcomings we identified were the products 
of cascading sets of circumstances that range from a lack of 
policy guidance, training, and adequate technology to a 
misleading set of Army personnel records and an error in 
interpreting an abbreviation.
    My written statement sets forth an overview of our analysis 
and our findings. Today, I will devote a review of the 
recommendations to help underscore the lessons of Fort Hood.
    The FBI has concurred in the principles underlying each of 
our 18 recommendations and in almost every instance has 
implemented or is implementing a responsive measure. We 
recommended that the FBI adopt seven policies to formalize FBI 
practices that were not followed in the Hasan matter or that 
would help assure information sharing in similar circumstances. 
The recommended policies concerned the counterterrorism 
command-and-control hierarchy at the FBI, restrictions on 
counterterrorism leads assigned to Joint Terrorism Task Force 
officers, and clearinghouse procedures for counterterrorism 
investigations and assessments of law enforcement personnel and 
other Government personnel.
    When Judge Webster was sworn in as director of the FBI, 
there were three analysts at the FBI. Today, the FBI relies on 
a cadre of more than 3,000 intelligence analysts with 
established career paths. We applauded the FBI's success in 
embedding analysts, creating fusion cells, and other analysis-
driven initiatives. We recommended further integration of 
analysts into FBI operational groups.
    A crucial lesson of Fort Hood is the ever-changing 
diversity and complexity of communications technologies and the 
impact of the ever-growing amount of electronic information on 
the FBI's ability to identify and combat terrorism. These 
change the ways in which the FBI will in the future need to 
acquire, store, review, manage, disseminate, and act on 
intelligence.
    We recommended that the FBI expedite and seek expanded 
funding for enterprise data management programs, with an 
emphasis on aggregating its primary investigative databases, 
collecting and storing data as a separate service from 
applications, and developing shared storage solutions across 
the U.S. intelligence community.
    We recommended that the FBI seek funding for acquisition of 
new hardware for its DWS-EDMS database system, which lacks the 
infrastructure to fulfill system demands and also lacks a live 
disaster recovery backup.
    Only two people, an FBI agent and an analyst, were charged 
with reviewing information in the al-Awlaki investigation. The 
crushing volume of information they confronted, the limited 
technology, and other factors forced those two people to review 
the 18 Hasan-al-Awlaki communications in a day-to-day context 
with 20,000 other items of electronic information they 
reviewed.
    We recommended that the FBI evaluate and acquire 
information technology that was automated and advanced that 
would assist personnel in reviewing and managing data.
    We also recommended that the FBI implement managed 
information review protocols for these types of large data 
collections. That would allow for case-specific review of the 
type that occurred in the al-Awlaki investigation, as well as 
strategic review by different review teams.
    An important reminder of Fort Hood is that Congress, the 
Justice Department, and the FBI must assure that the FBI's 
governing authorities strike an appropriate balance between 
protecting civil liberties and privacy interests and detecting 
and deterring threats like those posed by Major Hasan. We 
recommended, among other things, that the FBI should increase 
internal compliance reviews and audits and that its existing 
governing authorities should remain in effect.
    Training, we learned, is crucial, particularly in the task 
force context, where you have a diverse number of Federal, 
State, local, and Tribal agencies. The DCIS agent who conducted 
the Hasan assessment in the Washington field office did not 
even know that the DWS-EDMS database existed, leading him, and 
in turn his FBI supervisor, to believe that there were only two 
communications between Hasan and al-Awlaki. We recommended that 
the FBI require task force officers to complete database and 
computer training before they join the Joint Terrorism Task 
Force.
    In closing, I want to note that the final report focuses on 
what went wrong. But throughout our investigation we were 
witness to all that was right about the FBI. We saw patriotism, 
professionalism, dedication, and long hours of work in a 
context of constant threats and limited resources. Agents, 
analysts, and task force officers are confronted with decisions 
every day whose consequences may be life or death. These 
personnel need better policy guidance to know what is expected 
of them, better technology, resources, and training to navigate 
the ever-expanding flow of intelligence information. They also 
deserve our gratitude.
    Thank you.
    [The prepared statement of Mr. Winter follows:]
                Prepared Statement of Douglas E. Winter
                           September 14, 2012
    I first want to express, on behalf of Judge William H. Webster and 
my fellow Commissioners, our profound sympathy for the victims of the 
Fort Hood tragedy, their loved ones, families, and friends. Their loss 
is unimaginable. It is also America's loss.
    I also want to acknowledge the honor and privilege of working with 
Judge Webster. He is one of America's most distinguished public 
servants--a former U.S. Navy officer, U.S. Attorney, U.S. District 
Judge, U.S. Circuit Judge, Director of the Federal Bureau of 
Investigation, and Director of the Central Intelligence Agency. He is 
also an inspiration, a mentor, and a friend.
    In January 2010, Judge Webster asked me to join his independent 
investigation of the Federal Bureau of Investigation. At that time, we 
discussed the extraordinary scope of the Terms of Reference set out by 
FBI Director Robert S. Mueller III. We did not know then that our 
assignment would evolve and expand. We knew only the essential factual 
background, which I now describe.
                               background
    On December 17, 2008, U.S. Army Major Nidal Malik Hasan visited the 
website of radical Islamic cleric Anwar Nasser al-Awlaki (sometimes 
spelled ``Awlaki''). He sent a message to al-Awlaki. He sent another on 
January 1, 2009. The FBI Joint Terrorism Task Force (JTTF) in the San 
Diego Field Office, which led the FBI investigation of al-Awlaki, 
acquired the messages. An FBI Special Agent (SD-Agent) and Analyst (SD-
Analyst) reviewed the messages. Concerned by the content of the first 
message and implications that the sender was a U.S. military officer, 
SD-Agent set leads to the JTTF in the Washington, DC, Field Office 
(WFO) and to FBI Headquarters on January 7, 2009.
    Fifty days later, a WFO Supervisory Special Agent (WFO-SSA) read 
the lead and assigned it to a Defense Criminal Investigative Service 
(DCIS) Special Agent who served on the JTTF (WFO-TFO). Ninety days 
later, on May 27, 2009, WFO-TFO conducted an investigative assessment 
of Hasan, who worked as a psychiatrist at Walter Reed Army Medical 
Center. WFO-TFO queried certain FBI and Department of Defense (DoD) 
databases and reviewed the limited set of Army personnel records 
available to him. In the mean time, San Diego had acquired and reviewed 
12 additional messages and emails from Hasan to al-Awlaki and two 
emails from al-Awlaki to Hasan. San Diego did not connect these 
communications to the lead.
    WFO-TFO did not know about or review these additional 
communications. WFO's assessment concluded that Hasan was not 
``involved in terrorist activities.'' San Diego advised WFO that its 
assessment was ``slim.'' Neither JTTF took further action. Hasan sent 
his last message to al-Awlaki on June 16, 2009. al-Awlaki did not 
respond.
    In July 2009, the Army assigned Hasan to Fort Hood, Texas. In 
October 2009, the Army notified Hasan that he would be deployed to 
Afghanistan. On November 5, 2009, Hasan entered the Fort Hood 
deployment center carrying two handguns. He shouted ``Allahu Akbar!''--
Arabic for ``God is great!''--and opened fire, killing 12 U.S. soldiers 
and one DoD employee, and injuring as many as 43 others.
    This bare-bones summation veils an intricate and complex factual 
background.
    The FBI conducted an internal investigation of how San Diego and 
WFO handled the Hasan-al-Awlaki communications. The FBI took specific 
steps to improve its ability to deter and detect threats like Hasan. 
Director Mueller determined that an additional, independent 
investigation of the FBI's actions was appropriate.
                 the webster commission's investigation
    Judge Webster's written statement provides the subcommittee with an 
overview of our lengthy and detailed investigation, our findings, and 
our recommendations as set forth in the Final Report of the William H. 
Webster Commission on the Federal Bureau of Investigation, 
Counterterrorism Intelligence, and the Events at Fort Hood, Texas on 
November 5, 2009.
    To fulfill Director Mueller's Terms of Reference, the Commission 
conducted inquiries into violent radicalization; the FBI's Joint 
Terrorism Task Force Program; the FBI's governing authorities; the 
FBI's information technology and document review infrastructure; the 
FBI's investigation of al-Awlaki; the FBI's assessment of Hasan; and 
the FBI's pre- and post-Fort Hood data holdings on Hasan.
    Our analysis of the FBI's actions addressed knowledge and 
information sharing; ownership of the Hasan lead; WFO's assessment of 
Hasan; the FBI's information technology and review workflow; and 
training. Director Mueller also asked us to assess the FBI's remedial 
actions in the aftermath of the shootings, and to analyze whether the 
FBI's governing authorities strike an appropriate balance between 
protecting individual privacy rights and civil liberties and detecting 
and deterring threats such as that posed by Hasan. The investigation 
did not probe the shootings, which are the subject of a U.S. Army-led 
inquiry and military criminal proceeding against Hasan.
    Director Mueller promised, and the FBI provided, full cooperation 
and support. No request was denied. No question went unanswered. The 
Commission had personal contact with more than 100 FBI Agents, 
Analysts, and Task Force Officers assigned to investigate al-Qaeda and 
other organizations linked with violent Islamic extremism. We spent 
many days in interviews, briefings, operational meetings, and 
conversations with personnel from at least 7 different Field Offices/
JTTFs, FBI Headquarters, and the National Counterterrorism Center. We 
conducted a lengthy ``no limits'' field visit with a WFO 
counterterrorism unit of our choice that was not involved in the Hasan 
matter. We had direct access to the FBI's computer systems and to all 
personnel involved in the events at issue.
    The Commission found shortcomings in FBI policy guidance, 
technology, information review protocols, and training. I summarize our 
analysis here. I caution the reader, however, against reaching 
conclusions based solely on this summary, which lacks the factual and 
analytical context of the Final Report. I also emphasize that we could 
not base our analysis on what we learned about Hasan or al-Awlaki on 
and after November 5, 2009. Our review was based on information known 
or available to the FBI at the time the actions were taken in the 
context of the FBI's then-existing policies and procedures, operational 
capabilities, and technological environment. Finally, we recognized our 
limited ability to predict what might have happened if different 
policies or procedures were in effect or personnel had made different 
decisions or taken different actions. We chose not to speculate. We 
examined instead the reasonableness of what did happen, in order to 
identify and recommend, when appropriate, better and corrective 
policies and procedures for the future.
                        analysis of fbi actions
I. Knowledge and Information Sharing
            A. The FBI's Understanding of Violent Radicalization
    The FBI's understanding of violent radicalization is consistent 
with the contemporary views of the psychiatric community. Before the 
events at issue, the FBI had provided training on its radicalization 
model to Agents, Analysts, and Task Force Officers, including all 
personnel involved in the Hasan assessment. That training has expanded 
in the aftermath of the Fort Hood shootings.
            B. The FBI's Knowledge About Anwar al-Awlaki
    In early 2009, the FBI knew Anwar al-Awlaki as an English-speaking, 
anti-American, radical Islamic cleric and the subject of an FBI 
counterterrorism investigation. San Diego believed that al-Awlaki was 
developing ambitions beyond radicalization. WFO viewed him as merely 
inspirational. The FBI's full understanding of al-Awlaki's operational 
ambitions developed only after the attempted bombing of Northwest 
Airlines Flight 253 on Christmas day 2009.
            C. The FBI's Knowledge About Nidal Malik Hasan
    Our searches of the FBI's data holdings confirmed that San Diego's 
lead contained all of the FBI's actionable knowledge about Hasan as of 
January 7, 2009. The FBI's knowledge grew, or should have grown, over 
the next 5 months as San Diego acquired and reviewed 14 further 
messages from Hasan to al-Awlaki and two emails from al-Awlaki to 
Hasan. That knowledge also grew, or should have grown, as WFO conducted 
its assessment of Hasan on May 27, 2009, and San Diego reviewed that 
assessment in June 2009.
            D. Information Sharing
    The FBI did not share the Hasan information with any DoD employees 
other than DCIS and NCIS personnel assigned to the San Diego and WFO 
JTTFs.
    Notice of the Hasan Assessment.--Prior to Fort Hood, FBI Field 
Offices informally shared information with DoD on a regular basis about 
counterterrorism assessments or investigations of members of the U.S. 
military, DoD civilian personnel, and others with known access to DoD 
facilities. However, there was no formal procedure or requirement to 
advise DoD about these assessments and investigations.
    When San Diego set the lead to WFO, the FBI did not know whether 
the sender of the messages was a U.S. Army officer. In conducting its 
assessment of Hasan, WFO identified Hasan as a military officer but 
decided not to contact his chain of command. WFO's assessment concluded 
that Hasan was not involved in terrorist activities. Under these 
circumstances, the failure of either JTTF to advise DoD about the 
assessment was not unreasonable. However, the absence of a formal 
policy on notifying DoD of assessments or investigations of its 
personnel was unreasonable.
    The Decision Not to Issue an Intelligence Information Report.--FBI 
policy is to share intelligence when dissemination has the potential to 
protect the United States against threats to National security or 
improve the effectiveness of law enforcement. San Diego decided not to 
issue an Intelligence Information Report (IIR) to DoD and other U.S. 
intelligence community members because of a mistake in interpreting 
Hasan's Defense Employee Interactive Data System (DEIDS) record. A DCIS 
Agent assigned to the San Diego JTTF (SD-TFO3) read the DEIDS 
abbreviation ``Comm Officer'' to mean ``Communications Officer'' rather 
than ``Commissioned Officer.'' SD-Agent, who led the al-Awlaki 
investigation, thus believed that, if the sender was in fact Hasan, he 
might have access to IIRs. To protect the al-Awlaki investigation, he 
decided not to issue an IIR.
    SD-TFO3's misinterpretation of the DEIDS record was understandable; 
others had made the same mistake. WFO's response to San Diego corrected 
this mistake and identified Hasan as an Army physician. Given WFO's 
identification of Hasan and its assessment that he was not involved in 
terrorist activities, San Diego had no reason to revisit the question 
of issuing an IIR.
II.Ownership of the Lead
    The FBI's operational actions suffered from a lack of clear 
ownership of the Hasan lead. After setting the lead, San Diego believed 
that WFO was responsible for Hasan. WFO acted as if San Diego were 
responsible. The confusion resulted from the nature of Discretionary 
Action leads, a lack of policy guidance, the differing investigative 
interests of San Diego and WFO, a lack of priority, a misguided sense 
of professional courtesy, undue deference to military TFOs, and an 
inversion of the chain of command.
            A. FBI Policy and Practice
    In 2009, no FBI written policy established ownership of interoffice 
leads. In FBI practice, the receiving office was responsible for taking 
action in response to the lead and determining what, if any, additional 
investigative steps were warranted.
            B. The Leads
    San Diego's primary purpose in conducting the al-Awlaki 
investigation was to gather and, when appropriate, disseminate 
intelligence about him. The ``trip wire'' effect of the investigation 
in identifying other persons of potential interest was, in SD-Agent's 
words, a ``fringe benefit.''
    SD-Agent set a Routine Discretionary Action lead to WFO and an 
Information-Only lead to FBI Headquarters that included Hasan's 
messages. The messages contained no suggestion of imminent violence and 
no overt threat. Because the lead did not demand action within 24 
hours, FBI policy required SD-Agent to set a Routine lead. Because FBI 
practice was to give the receiving office discretion in assessing 
potential threats in its Area of Responsibility, the lead was ``[f]or 
action as deemed appropriate.''
    The decision to set a Routine Discretionary Action lead was 
reasonable under the circumstances and existing policies. The follow-
up, however, was not adequate.
            C. The Response
    San Diego set the lead on January 7, 2009. At that time, there was 
no formal policy guidance on the assignment or resolution of Routine 
leads. The timing of assignments depended on the practice of the 
receiving supervisor.
    At WFO, the receiving Supervisory Special Agent (WFO-SSA) did not 
read and assign the lead until February 25, 2009, nearly 50 days after 
the lead was set.
    No formal FBI policy set a deadline for the completion of work on 
Routine leads. Because file reviews occur on a quarterly basis, 
informal FBI policy required personnel to complete work on Routine 
leads within 90 days of assignment.
    WFO-SSA assigned the lead to a DCIS Agent detailed to the JTTF 
(WFO-TFO). WFO-TFO waited 90 days--until May 27, 2009, the day his work 
on the lead was supposed to be completed--to read it and take action. 
The 90-day delay in even reading the lead, let alone taking action, was 
unreasonable. That delay may have affected the shape, scope, and 
outcome of WFO's assessment of Hasan, which took place in 4 hours on 
that 90th day.
    Five months passed before WFO responded to San Diego's lead. The 
delay pushed Hasan further from the minds of SD-Agent and SD-Analyst, 
and may have contributed to their failure to connect other Hasan 
communications with the lead.
            D. The Impasse
    Although the lead identified a potential threat in the Washington, 
DC, area, WFO-SSA and WFO-TFO treated Hasan as part of San Diego's 
investigation of al-Awlaki. This perspective appears to inform their 
apprehension about interviewing Hasan and conducting a more expansive 
assessment without first checking with San Diego. Yet WFO declined to 
take further action even after San Diego criticized the assessment as 
``slim,'' and instead offered to ``re-assess'' if San Diego, 
``request[ed] any specific action.''
            E. Deference to Military Task Force Officers
    SD-Agent engaged DCIS and NCIS Task Force Officers (TFOs) in San 
Diego in researching Hasan's military status and deciding whether to 
circulate an IIR. Those actions were reasonable and prudent. 
Interagency synergy is a prime reason for the JTTF Program.
    That synergy weakens, however, when TFOs assume sole responsibility 
for investigating members of their own departments or agencies. WFO-
SSA's assignment of the lead to WFO-TFO had practical advantages. As a 
DCIS Agent, WFO-TFO had access to DoD resources and databases that were 
not available to the FBI. He also had an insider's knowledge of DoD 
practices and procedures that could prove vital to an assessment of a 
service member. However, he also brought the subjectivity of an insider 
to the assessment. That subjectivity may have caused undue deference to 
the Army chain of command and undue concern about the potential impact 
of an interview on Hasan's military career, which appear to have driven 
the decision not to interview Hasan or contact his superiors.
            F. An Inverted Chain of Command
    The JTTF synergy also weakens when the FBI looks to TFOs to resolve 
disputes between offices. Here, after SD-Agent reviewed WFO's response 
to the lead, he asked SD-TFO3 to contact WFO-TFO, DCIS Agent to DCIS 
Agent.
    SD-Agent should have called WFO-SSA. If they could not resolve 
matters, SD-Agent should have raised the dispute up the FBI chain of 
command to his supervisor, who could have reviewed the matter and 
contacted WFO-SSA's supervisor. If disagreement continued, the 
supervisors could have turned to FBI Headquarters for resolution. This 
is how the FBI has routinely handled interoffice disputes and 
disagreements, but only as a matter of unofficial policy.
            G. The Lack of Formal Policies
    The lack of formal policy guidance defining ownership of this lead 
and requiring elevation of interoffice disputes caused or contributed 
to a situation in which two JTTFs effectively disowned responsibility 
for the lead--each believing that the other office was responsible. 
That belief affected, in turn, each JTTF's sense of priority when it 
came to the assessment, the search for additional Hasan-al-Awlaki 
communications, and how the conflict between the offices should be 
resolved.
III. The Assessment
    WFO-SSA and WFO-TFO erred in the process they followed to conclude 
that Hasan's communications with al-Awlaki were benign and acceptable. 
They also erred in failing to search the database in which electronic 
communications were stored, if only to determine whether al-Awlaki had 
replied to Hasan's messages. Their assessment of Hasan was belated, 
incomplete, and rushed, primarily because of their workload; the lack 
of formal policy setting deadlines for the assignment and completion of 
Routine counterterrorism assessments; WFO-TFO's lack of knowledge about 
and training on DWS-EDMS; the limited DoD personnel records available 
to WFO-TFO and other DoD TFOs; and the delay in assigning and working 
on the lead, which placed artificial time constraints on the 
assessment.
            A. The Records Check
    WFO-TFO assessed Hasan using the limited Army Electronic Personnel 
File that WFO-TFO had authority to access. Those records praised 
Hasan's research on Islam and the impact of beliefs and culture on 
military service, and showed that he held a security clearance and had 
been promoted to Major weeks earlier. WFO-TFO thus believed--and WFO-
SSA agreed--that the Army encouraged Hasan's research and would approve 
of his communications with al-Awlaki.
    Based on this simple records check, those conclusions may have been 
reasonable. Hasan's two messages solicited Islamic opinions. He made no 
attempt to disguise his identity and used an email address that 
revealed his proper name.
    The Army records available to WFO-TFO did not present a complete or 
accurate picture of Hasan. Indeed, their contents were misleading. WFO-
TFO--and, in turn, the FBI--did not have access to the disturbing 
contents of Hasan's personal files at Walter Reed Army Medical Center 
and the Uniformed Services University of Health Sciences.
    Despite the Army's interest in Hasan's research, his communications 
with an inspirational and potentially operational radicalizer under FBI 
investigation deserved scrutiny beyond a simple records check. 
Regardless of the contents of his Electronic Personnel File, the lead 
warranted a closer look at Hasan.
            B. The Decision Not to Interview Hasan
    The decision not to interview Hasan was flawed. WFO-TFO and WFO-SSA 
believed that an interview could jeopardize the al-Awlaki investigation 
by revealing the FBI's access to Hasan's messages. This explanation is 
not persuasive. FBI Agents talk to subjects and assess threat levels 
every day without explaining the source of their knowledge.
    WFO-TFO and WFO-SSA also concluded, from the records check, that 
Hasan was not ``involved in terrorist activities.'' As a result, they 
believed that an interview and contact with Hasan's chain of command 
might jeopardize his military career, contrary to the FBI's ``least 
intrusive means'' requirement. Under that requirement, an investigative 
technique (for example, a records check or interview) may be used if it 
is the least intrusive feasible means of securing the desired 
information in a manner that provides confidence in the information's 
accuracy.
    The fact that messages to a radical imam appear to be benign 
academic inquiries does not answer the question of whether Hasan was a 
threat. The ``least intrusive means'' requirement did not prohibit 
further inquiry into that question, but would require a careful 
balancing of the competing interests of assessing a potential threat 
and minimizing potential harm to the subject of the assessment.
    Moreover, when San Diego expressed doubts about WFO's assessment, 
the calculus of the least intrusive means requirement should have 
changed. The next-least intrusive means (for example, an interview) 
could have been used to resolve any doubts about the messages and 
provide more confidence in the accuracy of the information supporting 
WFO's conclusion.
            C. The Failure to Search for Additional Messages
    WFO-TFO did not even know that DWS-EDMS, the database in which the 
Hasan-al-Awlaki communications were stored, existed until after the 
Fort Hood shootings. As a result, WFO-TFO searched only databases known 
to him and did not find any of the later messages. After receiving 
WFO's assessment, which stated incorrectly that WFO had searched all 
FBI databases, San Diego did not search DWS-EDMS for additional 
messages acquired during the intervening 5 months.
    The failure to search for additional messages appears to have had 
significant ramifications. That search, if performed on May 27, 2009, 
the date of WFO's assessment, would have returned 12 additional 
communications from Hasan and al-Awlaki's two emails to Hasan. Although 
none of the messages contained a suggestion of imminent violence or an 
overt threat, the additional messages could have undermined the 
assumption that Hasan had contacted al-Awlaki simply to research Islam.
    The failure to search for additional messages resulted primarily 
from the FBI's failure to provide TFOs with training on DWS-EDMS and 
other FBI databases, the search and information management limitations 
of DWS-EDMS, the lack of ownership of the Hasan lead, the lack (at that 
time) of a baseline collection plan, and the absence of the type of 
initiative that Agents, Analysis, and TFOs should be encouraged to 
take, particularly when confronted with dissonant information or an 
interoffice dispute.
            D. Workload and the Lack of Formal Policies
    The nearly 50-day delay in the assignment of the lead and the 90-
day delay in taking action on the lead suggest that WFO-SSA and WFO-TFO 
were overburdened. That underscores the importance of formal policy 
direction that allows personnel to understand, prioritize, and manage 
their workloads.
    The absence of formal policy guidance setting deadlines for 
assignment and resolution of Routine counterterrorism leads and 
establishing a baseline for information to be collected in 
counterterrorism assessments caused or contributed to an assessment of 
Hasan that was belated, incomplete, and rushed.
IV. Information Technology and Review
    A crucial lesson of Fort Hood is that the information age presents 
new and complex counterterrorism challenges for the FBI. Diverse and 
ever-growing waves of electronic information confront its law 
enforcement and intelligence-gathering activities. Emerging 
technologies demand changes in the ways that the FBI acquires, stores, 
reviews, organizes, manages, disseminates, and acts on intelligence.
    The actions of the Agents, Analysts, and Task Force Officers who 
handled the Hasan information cannot be judged fairly or accurately 
without an understanding of their working environment--and, in 
particular, their technological environment. Our investigation revealed 
that the FBI's information technology and review protocols were, then 
and now, less than adequate for fulfilling the FBI's role as the 
premier U.S. intelligence and law enforcement agency combating domestic 
terror.
            A. Information Technology Limitations
    DWS-EDMS, the primary database under review, is a capable tool that 
lacks the modern hardware infrastructure needed to fulfill and preserve 
its crucial functionality. The relatively aged server configuration for 
DWS-EDMS and its ever-increasing data storage demands, coupled with 
ever-increasing use, create issues that we witnessed in our hands-on 
use of the system. DWS-EDMS also lacks a ``live'' or ``failover'' 
disaster recovery backup.
            B. Information Review Workflow
    In examining San Diego's review of the information acquired in the 
al-Awlaki investigation, we identified serious concerns about the 
available technology and two interrelated concerns about human actions: 
Questionable decisions in reviewing certain communications and the 
failure to relate subsequent messages to the lead.
    The DWS-EDMS collection presented, in SD-Analyst's words, a 
``crushing volume'' of information. We were unable to assess the 
reasonableness of San Diego's review decisions and tracking of messages 
outside the context of the nearly 20,000 other al-Awlaki-related 
electronic documents that SD-Agent and SD-Analyst reviewed prior to 
Hasan's final message on June 16, 2009.
    We found, however, that the FBI's information technology and 
document review workflow did not assure that all information would be 
identified and managed correctly and effectively in DWS-EDMS because of 
a confluence of factors: (1) The humanity of the reviewers; (2) the 
nature of language; (3) the ``crushing volume'' of the al-Awlaki 
information; (4) the workload; (5) limited training on the databases 
and search and management tools; (6) antiquated and slow computer 
technology and infrastructure; (7) inadequate data management tools; 
(8) the inability to relate DWS-EDMS data easily, if at all, to data in 
other FBI stores; and (9) the absence of a managed quality control 
regime for review of strategic collections.
    The Final Report discusses each of these factors in detail (see 
Chapters 4-6 and 11). The confluence of these diverse human and 
technological factors forced SD-Agent and SD-Analyst to review, using a 
linear, forward-looking workflow, each of the Hasan-al-Awlaki 
communications in isolation as 18 of the nearly 8,000 electronic 
documents that they reviewed between December 18, 2008, and June 16, 
2009, the dates of Hasan's first and last messages to al-Awlaki. That 
workflow encouraged anticipatory review, analysis, and identification 
of products, but discouraged reflection, connectivity, and 
retrospective review and analysis. The operational and technological 
context in which SD-Agent and SD-Analyst worked, not their actions as 
reviewers, was unreasonable.
            C. Data Aggregation
    FBI Agents, Analysts, and Task Force Officers regularly consult 
many databases in the performance of their duties. In 2009, with few 
exceptions, users accessed each database using a discrete interface, 
password, and search engine. Our investigation found that planning for 
enterprise data aggregation, and consolidating and conforming the 
contents of these diverse databases, are vital to the FBI's ability to 
respond to the threat of terrorism.
                   assessment of fbi remedial actions
    At Director Mueller's request, Part Three of the Final Report 
assessed the changes to FBI policies, operations, and technology that 
resulted from its own internal review and subsequent events. We applaud 
these steps, which are outlined in Exhibit B.
              analysis of the fbi's governing authorities
A. Existing Authorities
    After an extensive review of the FBI's governing authorities (see 
Chapter 3), we asked representatives of Congressional oversight staff 
(the Majority and Minority staffs of the Senate and House Judiciary and 
Intelligence Committees) and public interest groups (the American Civil 
Liberties Union and the American Enterprise Institute) to identify 
their concerns abut the impact of the governing authorities on privacy 
rights and civil liberties.
    Part Four of the Final Report assesses those concerns. We concluded 
that existing authorities balance the FBI's responsibility to detect 
and deter terrorism with protection of individual privacy rights and 
civil liberties. We believe, however, that the FBI should monitor and 
report on its use of investigative techniques that raise concern 
through the Office of Inspection and Compliance, Inspection Division, 
and National Security Division. The FBI should modify or abandon 
policies and protocols that prove unacceptably harmful to privacy 
rights or civil liberties.
B. Additional Authorities
    We interviewed a broad range of FBI personnel involved in 
counterterrorism work; former FBI and other U.S. intelligence community 
personnel; and members of the Majority and Minority staff of the 
Congressional Judiciary and Intelligence Committees. Although we 
received a number of recommendations, we identified, but took no 
position on, two legislative actions that the FBI could propose to 
improve its ability to deter and detect terrorist threats.
    The Communications Assistance for Law Enforcement Act.--The FBI 
believes that amending the Communications Assistance for Law 
Enforcement Act (CALEA) (1994), 47 U.S.C.  1001 et seq., is an 
immediate priority. Congress enacted CALEA to assure that law 
enforcement obtains prompt and effective access to communications 
services when conducting a lawful electronic surveillance. The statute 
recognizes that surveillance may be difficult, if not impossible, 
absent an existing level of capability and capacity on the part of 
communications service providers. The threat to our National security--
increasingly explicit in FBI investigations--is that service providers 
using new technologies often lack that capability and capacity.
    Administrative Subpoena Authority.--The FBI's counterterrorism 
authorities are not as robust, definitive, and consistent as its law 
enforcement authorities. The FBI has the authority to issue 
administrative subpoenas in narcotics, child-abuse, and child-
exploitation investigations, but not in counterterrorism 
investigations. This inconsistency is noteworthy, although we recognize 
that counterterrorism investigations may implicate potential risks to 
civil liberties and privacy interests in ways that traditional law 
enforcement investigations do not.
                            recommendations
    We made 18 formal recommendations for corrective and enhancing 
measures on matters ranging from FBI policies and operations to 
information systems infrastructure, review protocols, and training. 
Exhibit A summarizes those recommendations. We also assessed whether 
any administrative action should be taken against any employee involved 
in this matter, and we concluded that administrative action was not 
appropriate.
    We recognize that the FBI has continued to evolve as an 
intelligence and law enforcement agency in the aftermath of Fort Hood 
and in furtherance of internal and external recommendations that 
followed, including the Special Report of the Senate Committee on 
Homeland Security and Governmental Affairs (February 3, 2011). To the 
extent our Recommendations may parallel or implicate actions and 
initiatives proposed internally or by others, they should not be read 
to suggest that the FBI has not been diligent in pursuing those actions 
and initiatives, but to underscore their importance.
                               conclusion
    In the words of our Final Report: ``We conclude that, working in 
the context of the FBI's governing authorities and policies, 
operational capabilities, and the technological environment of the 
time, FBI and Joint Terrorism Task Force personnel who handled relevant 
counterterrorism intelligence information made mistakes. We do not 
find, and do not suggest, that these mistakes resulted from intentional 
misconduct or the disregard of duties. Indeed, we find that each 
Special Agent, Intelligence Analyst, and Task Force Officer who handled 
the [intelligence] information acted with good intent. We do not find, 
and do not believe, that anyone is solely responsible for mistakes in 
handling the information. We do not believe it would be fair to hold 
these dedicated personnel, who work in a context of constant threats 
and limited resources, responsible for the tragedy at Fort Hood.'' We 
concluded instead that ``these individuals need better policy guidance 
to know what is expected of them in performing their duties, and better 
technology, review protocols, and training to navigate the ever-
expanding flow of intelligence information.'' We also concluded that 
the FBI should continue to focus on compliance monitoring and the 
oversight of authorized investigative techniques that may affect 
privacy rights and civil liberties.
                               EXHIBIT A
             summary of webster commission recommendations
Policies
A.1: A Formal Policy on Counterterrorism Command-and-Control Hierarchy
A.2: A Formal Policy on the Ownership of Counterterrorism Leads
A.3: A Formal Policy on Elevated Review of Interoffice Disagreements in 
Counterterrorism Contexts
A.4: A Formal Policy on the Assignment and Completion of Routine 
Counterterrorism Leads
A.5: A Formal Policy on Counterterrorism Leads Assigned to JTTF Task 
Force Officers
A.6: A Formal Policy on the FBI Clearinghouse Process for 
Counterterrorism Assessments and Investigation of Law Enforcement 
Personnel
A.7: A Formal Policy on the FBI Clearinghouse Process for 
Counterterrorism Assessment and Investigation of Other Government 
Personnel
Operations
B.1: Continued Integration of Intelligence Analysts into Operations
Information Technology and Review
C.1: Expedite Enterprise Data Management Projects
C.2: Expand and Enhance the Data Integration and Visualization System
C.3: Acquire Modern and Expanded Hardware for DWS-EDMS
C.4: Acquire Advanced Information Search, Filtering, Retrieval, and 
Management Technologies
C.5: Adopt Managed Information Review Protocols for Strategic 
Collections and OtherLarge-Scale Data Collections
Governing Authorities
D.1: Increase Office of Integrity and Compliance (OIC) and Inspection 
Division Compliance Reviews and Audits
D.2: Assure Strict Adherence to Policies That Ensure Security for 
Information That Lacks Current Investigative Value
D.3: The FBI's National Security letter, Section 215 Business Record, 
Roving Wiretap, and ``Lone Wolf'' Authorities Should Remain in Effect
D.4: Update Attorney General Guidelines Affecting Extra-Territorial 
Operations
Training
E.1: Train Task Force Officers on FBI Databases Before They Join Joint 
Terrorism Task Forces
                               EXHIBIT B
                    summary of fbi remedial actions
Information Sharing
(1) FBI-DoD Clearinghouse Process for Counterterrorism Assessments and 
Investigations of Military Personnel
(2) Consolidation of FBI-DoD Memoranda of Understanding on Information 
Sharing, Operational Coordination, and Investigative Responsibilities
Operations
(1) Discontinuance of ``Discretionary Action Leads''
(2) Counterterrorism Baseline Collection Plan
(3) Triggers for Assessments/Investigations
(4) Decisions to Close Certain Investigations of DoD Personnel
(5) Identification and Designation of Strategic Collections
Technology
(1) Automatic Linking of Email Data
(2) Automatic Flagging of Certain Email Data
(3) Flagging DWS-EDMS Activity Across Cases
(4) Workload Reduction Tools
(5) DWS-EDMS September 2011 Release
Training
(1) Virtual Academy
(2) Classroom Training
(3) Database Training
      THE WILLIAM H. WEBSTER COMMISSION ON THE FEDERAL BUREAU OF 
 INVESTIGATION, COUNTERTERRORISM INTELLIGENCE, AND THE EVENTS AT FORT 
                    HOOD, TEXAS, ON NOVEMBER 5, 2009
The Honorable William H. Webster, Chair
                             commissioners
Douglas E. Winter, (BRYAN CAVE LLP), Deputy Chair and Editor-in-Chief
Adrian L. Steel, Jr., (MAYER BROWN LLP), Governing Authorities Liaison
William M. Baker, (former FBI Assistant Director, CRIMINAL 
INVESTIGATIVE DIVISION)
Russell J. Bruemmer, (WILMER HALE)
Kenneth L. Wainstein, (CADWALADER, WICKERSHAM & TAFT LLP)
                                adjutant
Stephen J. Cox, (APACHE CORPORATION)
                               associates
George F. Murphy, (BRYAN CAVE LLP)
Margaret-Rose Sales, (MAYER BROWN LLP)

    Mr. McCaul. Thank you, Mr. Winter.
    The Chairman now recognizes Professor Manji for her 
testimony.

STATEMENT OF ISHRAD MANJI, DIRECTOR, MORAL COURAGE PROJECT, NEW 
                        YORK UNIVERSITY

    Ms. Manji. Thank you.
    Good morning. My name is Irshad Manji, and I am here in my 
capacity as founder and director of the Moral Courage Project.
    Before I formally begin, allow me also to express my 
sympathy to those, both American and not, who have been 
victimized by this week's violence in Libya, Egypt, and now 
Yemen.
    Housed in the Wagner School of Public Service, the Moral 
Courage Project teaches people worldwide to speak up when 
others, frankly, want to shut them up. We are motivated not 
just to break silences but also to combat the abuse of power, 
in other words the corruption, that comes from the fear of 
speaking out. This means understanding why silences develop in 
the first place, which brings me to the question that concerns 
our hearing.
    Let me be clear: I do not know if one or more FBI officers 
intentionally withheld information about Major Nidal Malik 
Hasan. But personal experiences leave me skeptical about 
whether the standard bearers of National security are willing 
to share vital information, whether with the public or with 
each other.
    I will give you a couple of examples in a moment. First, 
let me address why I would have personal experiences on this 
front. The reason is I am a devoted Muslim who loves God; and, 
because I love God, I speak up whenever anybody uses Islam to 
violate all of our God-given liberties and human rights.
    As refugees from East Africa, my family and I settled on 
the West Coast of Canada; and there I grew up attending two 
types of schools, the multi-racial, multi-faith public school, 
and then every Saturday, for several hours at a stretch, the 
Islamic religious school, the madrassa.
    At madrassa, I asked candid questions. For instance, why 
can't Muslims take Jews and Christians as friends? At the age 
of 14, having asked one too many of these questions, I got 
booted out of the madrassa. But as I have had to assure my 
mortified mother more than once, leaving madrassa does not mean 
leaving Allah.
    I decided to study Islam on my own and discovered that 
there is an Islamic tradition of questioning, of 
reinterpreting, and even of dissenting with the clerics. It is 
this tradition that empowers me to reconcile my faith with 
freedom. All of which puts me and my team on the receiving end 
of death threats and actual violence not just in Muslim-
majority countries but also in this part of the world. That is 
why I have first-hand experience with some of the inner 
workings of National security. That is how I have come to 
observe the censorship that plagues many good people, people to 
whom we do owe gratitude and whose mission is to protect the 
public.
    In my remaining time, I would like to share two stories. 
Although the first takes place in Canada, of which I remain a 
citizen, it foreshadows the second story, which takes place in 
the United States, where I now live and work.
    In June, 2006, Canadian police arrested young Muslims for 
plotting to blow up Parliament and behead the Prime Minister. 
The Toronto 17, as they came to be known, called their campaign 
Operation Badr, B-a-d-r, Badr. Operation Badr is a tribute to 
the battle of Badr, the first decisive military victory by 
Prophet Mohammed.
    Now, police knew that religious symbolism helped inspire 
the Toronto 17. Still, at the press briefing to announce those 
arrests, police did not mention the words Muslim or Islam.
    At their second meeting with the press, police boasted, 
bragged about avoiding the words Muslim and Islam, again 
despite knowing that Operation Badr had been organized in the 
name of Islam.
    Three months later, at a police conference, I raised my 
concern about the silence. After my plea for honesty, several 
law enforcement insiders, independent of each other, confided 
to me that the lawyers prevented these authorities from 
publicly uttering the words Muslim and Islam.
    As for my experiences in the United States, here is a 
concrete one. In 2009, I received media calls about David 
Headley, a U.S. citizen who helped plan the terrorist attacks 
on Bombay in 2008, in other words, the year before. Apparently, 
Mr. Headley had named me among his targets, too. Journalists 
wanted to know how that made me feel. You can guess my 
response.
    What made me feel worse, though, was that these media calls 
came in a full day before any National security officials got 
in touch. Somehow, somewhere their chain of communication had 
broken down.
    The research on institutional silos and silence suggests 
multiple forces at play. But the antidote to all of these 
forces is moral courage, the willingness to speak up when 
others want to shut you down.
    I thank you for this invitation and, unlike my madrassa 
teacher, I welcome your questions.
    [The prepared statement of Ms. Manji follows:]
                   Prepared Statement of Irshad Manji
                           September 14, 2012
    My name is Irshad Manji. I am here in my capacity as founder and 
director of the Moral Courage Project at New York University.
    Housed in the Wagner School of Public Service, the Moral Courage 
Project teaches people worldwide to speak up when others want to shut 
them up. We are motivated not just to break silences, but also to 
combat the abuse of power--the corruption--that comes from the fear of 
speaking out.
    This means understanding why silences develop in the first place, 
which brings me to the question that concerns our hearing.
    Let me be clear: I do not know if one or more FBI officers 
intentionally withheld information about Major Nidal Malik Hasan. But 
personal experiences leave me skeptical about whether the standard-
bearers of National security are willing to share vital information, 
whether with the public or with each other.
    I will give you a couple of examples in a moment. First, allow me 
to address why I would have personal experiences on this front. The 
reason is: I am a devoted Muslim who loves God, and because I love God, 
I speak up whenever Muslims use Islam to violate our God-given liberty 
and human rights.
    As refugees from East Africa, my family and I settled on the West 
Coast of Canada. There, I grew up attending two types of schools--the 
multi-racial, multi-faith public school and then, every Saturday, for 
several hours at a stretch, the Islamic religious school (madressa). At 
madressa, I asked candid questions. For instance, why can't Muslims 
take Jews and Christians as friends?
    At the age of 14, having asked one too many of these questions, I 
got booted out of madressa. But as I had to assure my mortified 
mother--more than once--leaving madressa does not mean leaving Allah.
    I decided to study Islam on my own, and discovered that there is an 
Islamic tradition of questioning, re-interpreting, and even dissenting 
with the clerics. It is this tradition that empowers me to reconcile my 
faith with freedom.
    All of which puts me and my team on the receiving end of death 
threats--and actual violence--not just in Muslim-majority countries, 
but also in this part of the world. That is why I have first-hand 
experience with some of the inner workings of National security.
    And that is how I have come to observe the censorship that plagues 
many good people whose mission is to protect the public.
    In my remaining time, I would like to share two stories. Although 
the first takes place in Canada, of which I remain a citizen, it 
foreshadows the second story, which takes place in the United States, 
where I now work and live.
    In June 2006, Canadian police arrested young Muslims for plotting 
to blow up Parliament and behead the Prime Minister. The ``Toronto 
17,'' as they came to be known, called their campaign, Operation Badr. 
This title is a tribute to the Battle of Badr, the first decisive 
military victory by Prophet Muhammad.
    Police knew that religious symbolism helped inspire the Toronto 17. 
Still, at the press briefing to announce those arrests, police did not 
mention the words ``Muslim'' or ``Islam.''
    At their second meeting with the press, police boasted about 
avoiding the words ``Muslim'' and ``Islam''--again, despite knowing 
that Operation Badr had been organized in the name of Islam.
    Three months later, at a police conference, I raised my concern 
about this silence. After my plea for honesty, several law enforcement 
insiders, independent of each other, confided to me that lawyers 
prevented authorities from publicly uttering the words ``Muslim'' and 
``Islam.''
    As for my experiences in the United States, here is a concrete one: 
In 2009, I received media calls about David Headley, a U.S. citizen who 
helped plan the terrorist attacks on Bombay the year before. 
Apparently, Mr. Headley had named me among his targets. Journalists 
wanted to know how that made me feel. You can guess my response.
    What made me feel worse was that these media calls came in a full 
day before any National security officials got in touch. Somehow, 
somewhere, their chain of communication had broken down.
    The research on institutional silos--and silence--suggests multiple 
forces at play. But the antidote to all of these forces is moral 
courage: The willingness to speak up when others want to shut you up.
    I thank you for this invitation and, unlike my madressa teacher, I 
welcome your questions.

    Mr. McCaul. Thank you, Professor, and we appreciate your 
courage. Thank you for being here.
    The Chairman now recognizes Mr. Leiter.

STATEMENT OF MICHAEL E. LEITER, FORMER DIRECTOR OF THE NATIONAL 
                    COUNTERTERRORISM CENTER

    Mr. Leiter. Mr. Chairman, Mr. Ranking Member, it is a 
pleasure to be back. This is my first appearance before the 
Congress outside of the Executive branch, and I have to say the 
freedom is rather invigorating.
    Today, I am actually appearing as a member of the Homeland 
Security Project at the Bipartisan Policy Center. That is the 
follow-on organization to the 9/11 Commission, led which the 
very distinguished and talented Governor Tom Kean and 
Congressman Lee Hamilton. Although, of course, also my comments 
are really based on my time, over 4 years, as the head of the 
National Counterterrorism Center, as well as serving in the 
Navy and the Department of Justice.
    Now, rather than spending my 5 minutes now going over 
extensively where I think improvements have been made, I would 
like to focus most of my comments on where I think there are 
still challenges that the Congress and the Executive branch 
faces over the next several years. But I do want to highlight, 
because you are focused on a failure--Congressman McCaul, you 
obviously noted the successes, and there really have been many, 
and many of these successes we simply take for granted today: 
The fact that we have a single, consolidated watch list at the 
National Counterterrorism Center; the fact that we have 
analysts and information systems from a variety of 
organizations all in one place; the fact that we have 104 Joint 
Terrorism Task Forces and fusion centers.
    These are all--none of this is to say that the problems are 
solved, but this is to say that the improvements are quite 
tremendous. The tragedy of the 13 brave Americans who were lost 
at Fort Hood can never be eliminated.
    All that being said, that we have avoided large-scale 
terrorist attacks in the United States and a total of 14 
individuals have been killed in the United States in the past 
11 years is, in my view, nothing short of remarkable. Tragic 
that every one of those lives was lost but a record which I do 
think that the Congress and the U.S. Government and our allies 
can in fact be proud of.
    Now, having accepted that not everything is right, I would 
offer two caveats before I go into the areas where I think they 
can be improved.
    First, I think the Congress and the Executive branch must 
be very careful not to conflate all information-sharing 
problems as being the same. There is real sophistication in 
this. What happened on Christmas day, an intelligence failure, 
was one type of information challenge; and it is a very 
different challenge from what happened at Fort Hood. I say that 
because I think it is important to, as I say, get under the 
hood, examine these with some specificity.
    Second, I think this committee knows this well, but we have 
to continue to remember that information sharing is not always 
unmitigated good. We need look no father than WikiLeaks to 
remember that, as we share information, we must also do it in a 
way that not only protects privacy and civil liberties but 
protects the security of that information.
    I believe these two things can be reconciled, but we cannot 
forget that there are dangers as well.
    Very quickly, where do I see some opportunities and need 
for improvement? I will divide it into five basic areas: Legal, 
policy, budgetary, personnel, and technology.
    First, on the legal front, I am a recovered lawyer, but I 
will say there is probably no area in which I work in National 
security where the legal landscape is a myriad of complicated, 
conflicting statutes, and it is extremely difficult to ever 
know how information can or cannot be shared. The burden that 
that puts on operators and analysts, not to mention lawyers, is 
tremendous.
    Although I think the Foreign Intelligence Surveillance Act, 
FISA, serves some very valuable purposes both for collection 
and for protection of civil liberties, anything that Congress 
can do to simplify that law, especially in an era of rapidly-
changing technology, would be critically important.
    Second, on the policy front, I think it is important that 
the Congress and the Executive branch work together to move 
legal policies--pardon me, move information-sharing policies in 
a far more rapid way than they move today. I think as a general 
matter--and I say this having served in a Republican and 
Democratic administration. I think as a general matter 
administrations have gotten these policies right about how 
information should be shared, but the pace at which these 
discussions occur borders on the Biblical. In an era of 
rapidly-evolving terrorist threats we cannot allow these 
discussions to go on endlessly. The Congress must demand that 
the Executive branch rapidly adopt policies, like the Attorney 
General guidelines, to ensure there is effective information 
sharing once laws are passed.
    On the budgetary front, this committee knows quite well the 
pressures that all of National security and State and local 
governments will face in the coming years. We have spent an 
enormous amount of money building Joint Terrorism Task Forces 
and State and local fusion centers. In my view, although these 
have done quite well, as we enter a more austere budgetary 
period the Congress will have to look quite closely at how we 
can rationalize and truly create a National system and not 
simply a patchwork of entities.
    Very quickly on the last two points, personnel and 
technology, I think part of the failure at Fort Hood was 
undoubtedly a thorough understanding among some well-
intentioned agents and officers about what were signs and 
symptoms of radicalization in the population. This sort of 
training must be continued; and, of course, training on the 
tools that people already have must be increased.
    Last, but not least, technology can help us here. We all 
know that technology is not a panacea. But basic technological 
tools which flag information for people allow uncorrelated 
information to be shown to a variety of individuals, 
information to be shared across security regimes amongst the 
FBI, National Counterterrorism, Department of Defense, and the 
like are absolutely critical. So it is not simply two agents 
looking at an email trying to decide whether or not an 
individual is radicalized, but we are actually taking full 
advantage of the larger National security community. Technology 
exists to do that today.
    With that, Mr. Chairman, I welcome your questions. It is 
very good to be back. I want to simply close on joining you on 
your notes of condolences for the loss that we saw in Libya, 
the losses that we see every day in Afghanistan, and the losses 
that we suffered in Fort Hood.
    [The prepared statement of Mr. Leiter follows:]
                Prepared Statement of Michael E. Leiter
                           September 14, 2012
                              introduction
    Mr. Chairman, Mr. Ranking Member, Members of the subcommittee: I am 
pleased to have the opportunity to appear before you today. This 
subcommittee has been at the center of ensuring that needed reform is 
taking place in our Government. I am deeply grateful to you for your 
sustained leadership in that effort. The subject of today's hearing, 
``Lessons from Fort Hood: Why Can't We Connect the Dots to Protect the 
Homeland?'' is of critical importance to National security.
    Today, I appear in my capacity as a Task Force Member of the 
Bipartisan Policy Center's Homeland Security Project, a successor to 
the 9/11 Commission. Drawing on a strong roster of National security 
professionals, the HSP works as an independent, bipartisan group to 
monitor the implementation of the 9/11 Commission's recommendations and 
address other emerging National security issues.
    HSP includes the following membership:
  <bullet> Governor Thomas H. Kean, Former Governor of New Jersey; 
        Chairman of the 9/11 Commission; and Co-Chair of the Homeland 
        Security Project;
  <bullet> The Honorable Lee H. Hamilton, Former Congressman from 
        Indiana; Vice-Chair of the 9/11 Commission; and Co-Chair of the 
        Homeland Security Project;
  <bullet> Peter Bergen, Director, National Security Studies Program at 
        the New America Foundation;
  <bullet> Christopher Carney, Former Congressman from Pennsylvania and 
        Chair of the U.S. House Homeland Security Oversight Committee;
  <bullet> Stephen E. Flynn, Ph.D., Founding Co-Director of the George 
        J. Kostas Research Institute for Homeland Security and 
        Professor of Political Science at Northeastern University;
  <bullet> Dr. John Gannon, Former Deputy Director of the CIA for 
        Intelligence;
  <bullet> Dan Glickman, Senior Fellow, Former Secretary of 
        Agriculture; Former Chairman of the U.S. House Intelligence 
        Committee;
  <bullet> Dr. Bruce Hoffman, Director, Center for Peace and Security 
        Studies, Georgetown University;
  <bullet> Michael P. Jackson, Chairman and CEO, VidSys, Inc. and 
        Former Deputy Secretary of the U.S. Department of Homeland 
        Security;
  <bullet> Ellen Laipson, President and CEO of the Stimson Center and 
        member of the President's Intelligence Advisory Board;
  <bullet> Michael E. Leiter, Senior Counselor to the Chief Executive 
        Officer, Palantir Technologies and Former Director of the 
        National Counterterrorism Center;
  <bullet> Edwin Meese III, Former U.S. Attorney General, Ronald Reagan 
        Distinguished Fellow in Public Policy and Chairman of the 
        Center for Legal and Judicial Studies at The Heritage 
        Foundation;
  <bullet> Erroll G. Southers, Former Chief of Homeland Security and 
        Intelligence for the Los Angeles Airports Police Department; 
        and Associate Director of the National Center for Risk and 
        Economic Analysis of Terrorism Events at the University of 
        Southern California;
  <bullet> Richard L. Thornburgh, Former U.S. Attorney General and 
        Governor of Pennsylvania;
  <bullet> Frances Townsend, Former Homeland Security Advisor and 
        Deputy National Security Advisor for Combating Terrorism;
  <bullet> Jim Turner, Former Congressman from Texas and Ranking Member 
        of the U.S. House Homeland Security Committee.
    My HSP colleagues and I believe the depth of this group's 
experience on National security issues can be of assistance to you and 
the Executive branch and we look forward to continuing to work with 
you.
    I will also draw on my experience as former Director of the 
National Counterterrorist Center (NCTC), a post I stepped down from 1 
year ago. While I will address certain aspects of deficiencies in 
information sharing surrounding the Fort Hood shootings, I believe I 
can best help the subcommittee by sharing my views about how well the 
Government is sharing information generally. While my testimony is in 
part based on my work with the HSP, it does not necessarily reflect the 
views of my HSP Board Member colleagues.
    Now, exactly 11 years after the tragic 9/11 attacks, and 8 years 
since The 9/11 Commission Report, is an appropriate time to take stock 
of how well our Government is sharing information.
                                overview
    The 9/11 Commission documented major failures of National security-
related agencies to share vital terrorist-related information in the 
months and years before the 9/11 attacks. In the pre-9/11 period, 
legal, policy, and cultural barriers among agencies created serious 
impediments to information sharing. The Commission made a number of 
specific recommendations to improve information sharing across our 
Government and regarded it imperative that all levels of Government 
make improvements.
    Information sharing within the Federal Government, and among 
Federal, State, local, and Tribal authorities, and with allies, while 
not perfect, has been considerably improved since 9/11. The level of 
cooperation among all levels of government is higher than ever. State 
and local officials have a far greater understanding not only of the 
threat and how to respond to it but also of their communities and those 
who may be at risk of radicalization. The formation of the National 
Counterterrorism Center (NCTC) was a major step toward improved 
information sharing. When the follow-on organization to the Commission 
issued grades and reviews in late 2005 and subsequently, it cited the 
creation of NCTC and its performance as a success in National security 
reform. Although I am admittedly biased on this point, I certainly 
agree that NCTC has played and continues to play a critical 
information-sharing role.
    NCTC's information-sharing responsibilities are extremely broad and 
encompass items that many now take as a given--even though 10 years ago 
they were nonexistent. For example, NCTC's maintenance of a 
consolidated watch list that is available to local police during a car 
stop, foreign service officers checking a visa application, and 
homeland security professionals at a border, ensure that a critical 
information-sharing gap from 9/11 is filled. Similarly, NCTC's three-
times daily video conferences ensure that every element of the U.S. 
Government knows what threats are on the radar. In addition the 
presence of analysts from more than 20 organizations at NCTC, sitting 
side-by-side, and sharing information countless times a day is a 
radical (and positive) shift from 2001. Finally, the Interagency Threat 
Assessment and Coordination Group (ITACG) provides greater information 
sharing between State and local officials and the whole of the U.S. 
Counterterrorism Community. In short, when it comes to information 
sharing the U.S. Government has moved forward in leaps and bounds.
    This improvement is, of course, not just because of NCTC but 
because of an equally concerted effort by the FBI, DHS, and others. 
Most notably there are now 104 Joint Terrorism Task Forces throughout 
the Nation, and 72 Fusion Centers in which Federal, State, local, and 
Tribal authorities investigate terrorism leads and share information. 
Since 2004, DHS has provided more than $340 million in funding to the 
Fusion Centers. Information sharing with the private sector has also 
become routine and is an important part of our defenses.
    Despite these improvements, there is no doubt that weaknesses 
exist--although I frankly believe we must be careful not to equate more 
recent information-sharing failures with those of the past. Information 
sharing is no more monolithic than any other complex issue or business 
process. Although information sharing is a good headline, when 
considering information sharing successes and failures we have to 
``look under the hood'' to see what is really going on, lest we fix 
things that weren't the problem in the first place.
    While the mechanisms are in place for better information sharing, 
the fact is that we missed opportunities to stop the Christmas day 
bomber from boarding Northwest Flight 253, as well as opportunities to 
intervene before the Fort Hood shootings. In my view each of these 
represents a different challenge.
    With respect to the first, information regarding the bomber was 
shared and shared widely. In the simplest of terms, the issue was not 
that people didn't have the data, but instead that they had too much 
data--and policy issues existed about what steps should be taken based 
on that data. With respect to the second, relevant information was not 
sufficiently recognized as such and passed to other operators, and FBI 
information technology hampered the connection of key data.
    An enormous amount of intelligence information constantly pours 
into our National security system. Sifting through it, synthesizing it, 
making sense of it, and making sure it receives the necessary attention 
is a backbreaking challenge, one that requires attentive management and 
testing to determine where the flaws are and how to fix them. It also 
requires the latest software and technology to ensure that searches 
dive into all databases so that no pertinent information on an inquiry 
fails to be captured. That technology exists and is available today it 
simply needs to be widely deployed.
    Of course, we should not view information sharing as an unmitigated 
good--or at least not as a good that does not require attendant 
modifications to other aspects of intelligence and homeland security as 
it advances. There is no greater illustration of this than the tragedy 
of WikiLeaks, which has disclosed to the world--both our adversaries 
and friends--sensitive information about our intelligence and policies. 
This publication of sensitive Government documents has harmed our 
Government's ability to conduct its affairs and has had serious 
consequences for our National security.
    In my view WikiLeaks demonstrates why as we share information we 
must also increase our ability to control the information that is 
shared and take special care to control the wholesale movement of 
sensitive information off of protected networks. It is not new that 
those who wish to harm the Nation will attempt to steal our secrets; it 
is new that with the spread of electronic information they can steal 
petabytes rather than mere pages of documents.
                      still a need for improvement
    Where, then, can improvements still be made? We offer some 
suggestions along the traditional lines of correction: Legal, policy, 
budgetary, personnel, and technology.
    With respect to the first, legal, we must recognize that the 
Constitution and countless statutes govern the mosaic that is 
information sharing. In my experiences at NCTC, statutes ranging from 
the Foreign Intelligence Surveillance Act (FISA) to the Violence 
Against Women's Act drove what could and could not be shared. If there 
was one statute that was most at issue, however, it was FISA. In my 
view although FISA obviously provides critical protection of U.S. 
persons' privacy, it also makes for an exceedingly complex decision-
making process within the intelligence community. Any way in which we 
can simplify this statute while maintaining protections would be 
invaluable for both collectors and analysts.
    On the policy front, I believe it is important that we accelerate 
the review and adoption of Executive branch implementation guidelines 
for any information sharing-related policies. In my view the Executive 
branch has done an admirable job getting to the right polices in cases 
like the Attorney General Guidelines for various elements like NCTC, 
but the time required to adopt such policies borders on the Biblical. 
Yes there are difficult issues that must be addressed, but these issues 
are too important to allow the process to drag on as it most usually 
does.
    Also on the policy front--but directly related to the budgetary--we 
remain concerned that FBI and DHS information-sharing efforts with 
State and local governments lack full cohesion. With declining 
budgetary resources, it strikes us as important to determine the best 
way to spend the marginal on DHS-sponsored fusion centers--where today 
the FBI has more people in place than does DHS. The U.S. Government 
must, 11 years after 9/11, ensure that respective Departmental foci are 
consistent with the reality of long-standing intergovernmental 
relationships and on-the-ground presence. I believe that the FBI's new 
responsibility as domestic DNI representatives is a very positive step 
in that direction.
    Nowhere will budget play a bigger role in information sharing than 
State and local fusion centers, which are facing wide and deep 
budgetary challenges. In addition, budgetary issues will be faced in 
the context of protecting information from leaks (which is required to 
enable information sharing), training for personnel on advanced 
analytic tools that enable information sharing, and having sufficient 
personnel to collect and exploit information so it can be shared 
effectively.
    On the personnel front, many agencies must continue to train 
personnel to ensure that they know what information is relevant and 
hence what must be shared. In particular, the FBI needs to--as it 
generally has in the past--prioritize enhancing the status of its 
analysts and ensuring that analysis drives operations. Similarly, DHS 
must continue to improve its analytic cadre and move away from contract 
personnel. All analysts and operators must continue to receive high-
quality training on issues like radicalization, to recognize signs of 
danger.
    Finally, on the technology front, we continue to face a relative 
maze of Government information systems of significantly varying 
capability. We cannot be so naive to say that one big database of 
information can be created: This is neither technically feasible nor 
wise as it relates to protection of information and privacy. That being 
said, we must ensure that operators and analysts have advanced 
technology that allow them to make connections in disparate data sets, 
share their knowledge across organizations, and keep information 
secure. And perhaps most importantly, the Congress must continue to 
closely monitor Government information technology reforms as the 
bipartisan Executive branch record on this front is less than 
inspiring.
                               conclusion
    In sum, up until now the Government's counterterrorism capability 
has grown with much energy and devotion, but it has done so while flush 
with resources. The Nation's current fiscal situation means we have to 
be smarter in how we use our resources so that we get the maximum bang 
for our counterterrorism buck and can stay one step ahead of the ever-
changing terrorist threat.
    Our terrorist adversaries and the tactics and techniques they 
employ are evolving rapidly. We will see new attempts, and likely 
successful attacks. One of our major deficiencies before the 9/11 
attacks was that our National security agencies were not changing at 
the accelerated rate required by a new and different kind of enemy. We 
must not make that mistake again. Sharing information rapidly is a 
major comparative advantage we have over terrorists. We must regularly 
review how we are doing and move quickly to address any problems, fill 
any gaps that arise.
    Thank you for inviting me to testify, and for this subcommittee's 
leadership on these critical issues.

    Mr. McCaul. I appreciate those comments, Mr. Leiter. Thank 
you for being here again; and I look forward to hearing the 
answers to my questions in a more open format, without the 
constraints of the Federal Government on top of you.
    So with that, I would like to enter into the record a 
statement from the Honorable William Webster, the chair of the 
Webster Commission.
    Hearing no objection, so ordered.
    [The statement of Mr. Webster follows:]
    Statement of William H. Webster, Chair, The William H. Webster 
                               Commission
                           September 14, 2012
    On December 17, 2009, Federal Bureau of Investigation Director 
Robert S. Mueller III asked me to conduct an independent investigation 
of the Federal Bureau of Investigation's handling of counterterrorism 
intelligence before and after the tragic shootings at Fort Hood, Texas, 
on November 5, 2009. The FBI had conducted an internal investigation in 
the immediate aftermath of the shootings and had implemented 
procedural, operational, and technological improvements. Director 
Mueller believed, however, that an objective, independent review was 
critical to understanding the FBI's actions and assessing the potential 
for further improvements.
    I agreed to what proved to be a complex and lengthy assignment. The 
Terms of Reference were extraordinary in scope. Director Mueller 
requested not only a full investigation of the manner in which the FBI 
and its Joint Terrorism Task Forces handled and acted on 
counterterrorism intelligence before and after the shootings, but also 
a review and assessment of the FBI's governing authorities and the 
FBI's remedial measures in the aftermath of Fort Hood--with a 
particular focus on whether existing laws and policies strike an 
appropriate balance between protecting individual privacy rights and 
civil liberties and detecting and deterring threats. That broad mandate 
was complicated, and its importance underscored, by subsequent terror-
related events. The investigation did not probe the shootings, which 
are the subject of a U.S. Army-led inquiry and military criminal 
proceeding against Major Nidal Hasan.
    In discharging my duties, I asked five distinguished citizens--
seasoned investigators and legal specialists--to volunteer their time 
to serve as Commissioners: William M. Baker, Russell J. Bruemmer, 
Adrian L Steel, Jr., Kenneth L. Wainstein, and Douglas E. Winter. They 
were assisted by Stephen J. Cox, George Murphy, and Margaret-Rose 
Sales. Their contributions of time and energy were substantial, adding 
to the already significant demands of their work in the private sector. 
Their commitment to this investigation and the resulting report was an 
act of selfless patriotism.
    The Commission took its responsibilities seriously. My colleagues 
and I pursued the sensitive, complex matters under review with 
diligence and care. The investigation was meticulous. Our discussions 
were vigorous. The Commissioners asked questions and expressed their 
perspectives, concerns, and opinions with candor. Although we disagreed 
from time to time during the course of our investigation, we were 
unanimous in our factual findings, our analysis of the FBI's actions, 
our recommendations, and every other aspect of the Final Report.
    When I agreed to undertake this project, Director Mueller promised 
the FBI's full cooperation and support. That promise was fulfilled. The 
FBI and Department of Justice provided the Commission with more than 
100 formal and informal interviews, meetings, and briefings; more than 
10,000 pages of documents; and direct access to FBI computer systems. 
To obtain a broad range of perspectives, the Commission also consulted 
with outside experts on counterterrorism and intelligence operations, 
information technology, and Islamic radicalism; public interest groups 
that promote civil liberties and privacy interests; and staff from 
Congressional committees with FBI oversight responsibilities. The input 
of more than 300 persons and hundreds of documents informs the Final 
Report.
    On July 12, 2012, after a completing the 2\1/2\-year investigation, 
we delivered the Final Report of the William H. Webster Commission on 
the Federal Bureau of Investigation, Counterterrorism Intelligence, and 
the Events at Fort Hood, Texas on November 5, 2009, to Director 
Mueller. As you have seen, the Final Report exceeds 150 single-spaced 
pages in length and includes 18 formal recommendations for corrective 
and enhancing measures.
    Director Mueller asked me to examine, among other things, ``whether 
the actions taken by the FBI were reasonable under the circumstances 
known at the time.'' Our analysis of those actions could not proceed 
from what we later learned about Nidal Malik Hasan or Anwar Nasser al-
Awlaki. Hindsight has uses, but it is not an appropriate tool for 
assessing the reasonableness and adequacy of actions taken without its 
benefit. Our review was based on information known or available to the 
FBI at the time the actions were taken.
    We also recognized that reasonableness must be measured in the 
context of the FBI's governing authorities and policies, operational 
capabilities, and the technological environment of the time. For 
example, as discussed in the Final Report, the FBI's governing 
authorities limit its ability to disseminate information acquired using 
the Foreign Intelligence Surveillance Act of 1978, 50 U.S.C. 1801 et 
seq., and require Agents and Task Force Officers to use the ``least 
intrusive means'' in conducting assessments and investigations. As a 
further example, the FBI's then-existing information technology and 
document review workflow did not assure that potentially relevant 
intelligence would be identified, correlated, and assessed in a 
strategic context.
    Finally, we recognized our limited ability to predict what might 
have happened if different policies or procedures were in effect or 
personnel had made different decisions or taken different actions. We 
chose not to speculate. We examined instead the reasonableness of what 
did happen, in order to identify and recommend, when appropriate, 
better and corrective policies and practices for the future.
    The Final Report did not hesitate to identify shortcomings when we 
found them. In its words: ``We conclude that, working in the context of 
the FBI's governing authorities and policies, operational capabilities, 
and the technological environment of the time, FBI and Joint Terrorism 
Task Force personnel who handled relevant counterterrorism intelligence 
information made mistakes. We do not find, and do not suggest, that 
these mistakes resulted from intentional misconduct or the disregard of 
duties. Indeed, we find that each Special Agent, Intelligence Analyst, 
and Task Force Officer who handled the [intelligence] information acted 
with good intent. We do not find, and do not believe, that anyone is 
solely responsible for mistakes in handling the information. We do not 
believe it would be fair to hold these dedicated personnel, who work in 
a context of constant threats and limited resources, responsible for 
the tragedy at Fort Hood.''
    We concluded instead that ``these individuals need better policy 
guidance to know what is expected of them in performing their duties, 
and better technology, review protocols, and training to navigate the 
ever-expanding flow of intelligence information.'' We also concluded 
that the FBI should continue to focus on compliance monitoring and the 
oversight of authorized investigative techniques that may affect 
privacy rights and civil liberties.
    The Commission found shortcomings in FBI policy guidance, 
technology, information review protocols, and training. We made 18 
important recommendations for corrective and enhancing measures in 
those areas and about the FBI's governing authorities. We also 
identified, but took no position on, two legislative actions that the 
FBI could propose to improve its ability to deter and detect terrorist 
threats. Finally, we assessed whether administrative action should be 
taken against any employee involved in this matter, and we concluded 
that administrative action was not appropriate.
    The FBI has agreed with the principles underlying all 18 of our 
recommendations. In most cases, the FBI has taken action to implement 
the recommendations based a combination of the Commission's work, its 
own internal review of the Fort Hood shootings, and the report of the 
U.S. Senate Committee on Homeland Security and Governmental Affairs.
    I appreciate the subcommittee's interest in the lessons of Fort 
Hood. Those lessons are not specific to the Federal Bureau of 
Investigation, but resonate throughout the law enforcement and 
intelligence communities. The Final Report provides insights into the 
arduous mission of the FBI and other agencies in combating the threat 
of terrorism, whether domestic or international.
    Throughout our investigation, we witnessed the ever-increasing 
challenge that electronic communications pose to the FBI's efforts to 
identify and avert potentially destructive activity. Although our 
Report reviews the specifics of one tragic event, it also speaks to 
transcendent issues that are crucial to our ability to combat terrorism 
in the electronic age.
    We did recommend corrective and enhancing measures, but nothing 
said in the Final Report is intended to cast doubt on the dedication 
and professionalism of the men and women who serve our Nation in 
combating terror and crime.
    Thank you.

    Mr. McCaul. I want to just show, not for any reason other 
than--this was taken the day of the memorial service at Fort 
Hood, and you can see--I was standing here--you can see the 
boots, the rifles, the helmets. It really gives you a graphic 
picture of what really happened that day.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCaul. You can see one of these soldiers on crutches. 
I asked him, ``What did he say when he shot you?'' 
``Congressman, he said `Allahu Akbar,' '' God is great, the 
classic jihadist terminology.
    At that moment, I realized that this was not a workplace 
violence incident, that this was something more, that this was 
in fact an act of terrorism. I was criticized at the time for 
saying that. I think history will judge that as a correct 
assessment of what happened on that fateful day.
    Mr. Leiter, I want to start with you, because you headed 
the NCTC. You are really the expert at connecting the dots, and 
you did perform a masterful job while you were there.
    You and I worked with Joint Terrorism Task Forces. They 
have an enormous challenge, an enormous amount of data that 
comes through, and many of which, if you miss one thread of 
evidence, you can be held accountable by Members of Congress 
like myself at a later hearing.
    But these emails, the 18 emails that took place, when we 
were briefed by senior intelligence officials--and they 
wouldn't give us the content, they would just simply say--the 
only word I can use is downplay the significance of these 
emails. Finally, when the good work of the Webster report 
revealed these emails publicly, we all had a chance to actually 
read the content.
    The one that I described in my opening statement on May 31, 
2009, Major Hasan, he almost seems to be telegraphing exactly 
what he is getting ready to do, almost asking for permission 
from al-Awlaki in Yemen, is it okay for a suicide bomber to 
kill soldiers and innocent civilians in the cause to protect 
our fellow brothers?
    You know, you and I have worked in law enforcement. This is 
one of 18. The other one, ``keep me on your Rolodex,'' you 
know, to me, this is a huge flag.
    It was a big deal in San Diego. The San Diego Joint 
Terrorism Task Force thought, wow, there is something wrong 
going on here. We need to start--let's send a lead to WFO. 
Let's have them investigate.
    The response from WFO is astounding, that, well, we don't 
really see a terrorist threat here; and they basically shut 
down this investigation until 5 months later when Major Hasan 
kills 13 people, 12 soldiers.
    There is a Department of Defense official on the Joint 
Terrorism Task Force, and yet that official didn't contact Fort 
Hood. Maybe it is the legal restrictions that you are talking 
about. If so, we need to change that.
    There were so many flags not only between the FBI two 
offices--and I really commend the San Diego office for their 
courage and bravery of trying to get to the bottom of this. I 
fault the WFO office for not following up on this. In the 
military, the way they passed this guy along, knowing he is 
proselytizing radical Islam with a business card: Soldier of 
Allah. He is enraging his colleagues. What do they do? They 
don't want to deal with the problem. They want to pass him 
along, promote him, send him down to Fort Hood.
    So many flags in this case. The dots were identified, but 
they weren't shared. How did this happen?
    Mr. Leiter. Congressman, I will say that I agree with you 
that it did not take long, from my perspective, to know that 
this was an act of terrorism. In fact, the National 
Counterterrorism Center within a week of the event entered this 
into its world-wide database of terrorist events based on 
preliminary reports. That was not a conclusive legal judgment 
but certainly all the indications were that this was terrorism.
    I think in terms of the information that was not shared, 
you had a breakdown along so many different angles. The San 
Diego team I think did do a very good job; and I would defer to 
Mr. Winter, of course, who knows these details better than I, 
but they were not even aware of all of the emails. They were 
not aware of the Department of Defense information. WFO was not 
aware of much of that. It was handed to an officer who, 
frankly, from an outsider's perspective, I think didn't have a 
really strong understanding of the signs of radicalization.
    Now, the two points I would make quickly in defense of how 
this evolved is: No. 1, we do have to put ourselves back in 
2009 to recall who Anwar al-Awlaki was then versus who he is 
perceived to be today. In 2011, 2012, we understood him to be 
an operational leader in a way that in 2009 we did not. That is 
not an excuse, but it is some color.
    The second piece is, from my perspective, Congressman, the 
idea that people would not go talk to him I do not understand. 
I do believe that if that information were shared with a 
broader group who understood radicalization there would have 
been increased pressure from headquarters to make that happen; 
and that would have led to, I believe, a better outcome.
    Mr. McCaul. I couldn't agree with you more.
    I talked to the commanding officer at Fort Hood. Wouldn't 
you have liked to have known this? I understand FISA 
complications. I understand you want to shake down somebody. 
They could have at least watched him, put him under some sort 
of surveillance. Just maybe that would have stopped what 
happened.
    My time is limited. I do want to go to Mr. Winter.
    Eighteen emails, WFO only has two emails. Some technology 
breakdown occurs where they are not even aware--they can't even 
access, they didn't even know how to access to get these 
remaining emails. I have to say, Mr. Leiter, I mean, you as a 
former Justice Department official like myself, this May 31 
email, if you read this, would that concern you?
    Mr. Leiter. Congressman, I look at one email and I look at 
the body of the emails and to me they are clear indicators of 
an individual who has been radicalized. Whether or not he has 
been mobilized to take action, that is a hard call----
    Mr. McCaul. But when he is asking permission to perform a 
suicide bombing mission against soldiers and civilians at a 
dinner to protect his fellow----
    Mr. Leiter. That is why I said, Congressman, I would want 
somebody to go out and interview this guy, who has clearly been 
radicalized.
    Mr. McCaul. I think that is what should have happened in 
this case.
    Mr. Winter, what happened here?
    Mr. Winter. The decisions made in WFO were based on a 
cascading set of circumstances.
    Mr. McCaul. Your microphone?
    Mr. Winter. I am sorry. Is that better?
    Mr. McCaul. Yes.
    Mr. Winter. The decisions made at WFO were the result of 
truly a cascading set of circumstances. San Diego sent this 
lead based on the first two emails that were acquired from 
Hasan to al-Awlaki. There was no FBI policy on the assignment 
of these types of leads or on taking action on these types of 
leads.
    The supervisor of WFO waited 50 days after the arrival of 
the lead to read it and to assign it. He assigned it to a DCIS 
agent who was a task force officer.
    That agent waited 90 days from then to read it and to act 
on it. Under informal FBI practice, agents had 90 days to work 
on leads, either to elevate them into an investigation or to 
close them down. So this agent read that lead and acted on it 
on the last day under that FBI practice and, indeed, conducted 
this assessment in 4 hours on that day.
    So it was rushed. There was that pressure that was created 
by their workload and these late assignments.
    He consulted U.S. Army electronic personnel files on Major 
Hasan. That was the entirety of what he as a DCIS agent could 
have access to from the JTTF. That meant he received a brief 
and highly misleading set of personnel records that indicated 
that Major Hasan had a security clearance, he had been promoted 
to major only 10 days earlier, and his supervisors praised him 
thoroughly. The only negative in those 80-some pages, I 
believe, was that he had failed his PT test.
    Mr. McCaul. They praised him.
    Mr. Winter. They praised his research on Islam in the 
military.
    Now, Hasan had used his real name in communicating with al-
Awlaki, so had not tried to render himself anonymous. The DCIS 
agent concluded, based on that, that this was part of Hasan's 
research on Islam in the military and that the Army approved of 
it.
    At the same time, there was no FBI policy on what is called 
a baseline collection plan. That policy was instituted in 
September, 2009, after this investigation but before the Fort 
Hood shootings. That created a minimum of what agents are meant 
to collect when conducting an assessment. If that plan had been 
in effect then, this agent would have been required to consult 
the DWS-EDMS system, which is a computer database on which all 
of the messages from Hasan to al-Awlaki and vice versa were 
stored. Thus, he would have known of that, and he would have 
been required to search it.
    But he had not been trained on that database. He didn't 
even know it existed. So, what he believed, after searching FBI 
databases, was that there were only two emails, that they were 
sent in December, 2008 and January, 2009, which was 5 months 
prior, and that al-Awlaki had not responded. Based on that, he 
concluded and his supervisor concluded that Hasan was not 
involved in, ``terrorist activities.''
    Now, did that resolve the question of whether or not Hasan 
was a threat? We didn't believe so. We felt that this decision-
making process was flawed and that they should have considered 
and conducted an interview of Hasan based solely on the 
information they had at that time.
    But I am not defending the decision; I am explaining it. 
You can understand how reasonably these men could have been led 
down this path by the combination of all these circumstances, 
some of which were self-imposed, others of which were the 
result of the lack of policy, others that were the result of an 
inability to gain access to those records that Walter Reed, for 
example, had.
    Mr. McCaul. I think those problems need to be fixed. But I 
will ask you this question. I believe that gross errors were 
made in this matter that resulted in 13 people being killed, 12 
soldiers. Should anybody be held accountable within the Federal 
Government?
    Mr. Winter. On our review--we were specifically asked by 
Director Mueller to assess whether any disciplinary action 
should be taken against any of the personnel involved. Although 
we found that mistakes were made, we found that these 
individuals acted with good intent, they acted mostly 
reasonably under the circumstances, and that they were not 
individually responsible for some of the decisions that 
occurred because of the lack of policy direction, for example.
    One of the reasons we advocated the seven policies that we 
recommended was that if those policies had been in place, and 
similar procedures, then actions like this would violate them 
and individuals would be directly responsible and subject to 
discipline.
    Mr. McCaul. Is it your understanding these policies are in 
place now?
    Mr. Winter. Almost all of the policies are in place. They 
are not--some of them are being coordinated into a single 
policy, the command-and-control hierarchy, for example.
    Mr. McCaul. My time is kind of running short.
    On the Center report, they indicated the San Diego office 
calls WFO; and the response back is: Look, we don't want to 
damage his stellar career, and something to the effect of this 
is a politically sensitive matter.
    That was not corroborated by the WFO office. Is that 
correct?
    Mr. Winter. That is correct.
    Mr. McCaul. But, according to San Diego, that conversation 
took place.
    Mr. Winter. Well, the first part that you discussed is 
corroborated, that WFO advised San Diego twice that they did 
not believe an interview of Hasan was appropriate because it 
would damage him in terms of his position in the military. The 
chain of command would not take it lightly.
    Mr. McCaul. I do think that the American people and the 
families and the victims deserve that somebody in this 
Government be held accountable for what happened.
    Professor, I want to ask you real briefly, with my limited 
time left, you spoke very eloquently of your experience of the 
fear of speaking out. Within the Department of Defense, you 
know, we have this individual that various of his colleagues 
are seeing these warning signs popping up. They call him a 
ticking time bomb. He is proselytizing radical Islam, talking 
about Osama bin Laden, having business cards that say Soldier 
of Allah. I mean, so many indicators are there, and then no one 
wants to speak out. There is a fear of retribution within the 
Army, and he is just sort of passed along. Is this a case where 
political correctness was more important or overshadowed 
National security?
    Ms. Manji. It sure sounds like that--if you can hear me, it 
sure sounds like that.
    Thank you.
    It sure sounds like that, Congressman. Frankly, I think it 
would be fairer to ask if political correctness also crept into 
the FBI.
    For example, we have spent the last several minutes talking 
about how somebody at the San Diego office of the FBI had a 
troubling lead, passed it on to the Washington field office, 
after which it went nowhere. One of the questions I have, as I 
am listening to these other testimonies, is why did the San 
Diego officer not stand up when it became clear to him or her 
that an obviously unsettling lead was not going to be acted 
upon?
    Now, one can argue that, well, it is obvious why people 
don't stand up in general, because doing so invites 
complication in your life. Life is complicated enough, thank 
you very much.
    But this is where I believe we can actually learn something 
about a mechanism that the Department of State has put into 
place, and that is a mechanism called the dissent channel. It 
was actually introduced just after the Vietnam war, whereby 
foreign policy officers, when they see that the chain of 
command is going to be resisting their dissent with groupthink, 
with the settled consensus that has been accepted for too long 
within the cozy confines of that department, they can actually 
use this dissent channel to explain why somebody higher up 
needs to hear a counter argument. They do not have to get 
permission from their higher-ups in order to be heard through 
this channel.
    I don't think that that exists either at the Department of 
Defense or at the FBI, but it is something well worth 
investigating whether it works, as it did, by the way, in the 
lead-up to the Yugoslav--to the Balkan genocide. It was, one 
could argue that that was the reason, because at the time 
Secretary of State Eagleburger heard a dissenting voice through 
that channel and realized that the United States must 
intervene.
    It was through that that I think we can learn a little bit 
more about how dissent can be institutionalized so that it is 
constructive rather than chaotic.
    Mr. McCaul. Thank you. Excellent point.
    The Chairman now recognizes the Ranking Member.
    Mr. Keating. Thank you, Mr. Chairman, and I think you have 
done a good job of looking historically at this.
    I want to come at this at a different angle, maybe ask Mr. 
Leiter first. I have heard about the policies. I have heard 
about some of the changes. Could this, under the same set of 
circumstances, happen today?
    Mr. Leiter. Congressman, you would end up with a slightly 
different set of facts. It wouldn't quite fit the policies that 
you put in place, but I think that there remain holes.
    Mr. Keating. Forget the policy, just the circumstances.
    Mr. Leiter. I think it is less--the more it looks like this 
circumstance, the less likely it is going to occur. But could 
something like this fall through the cracks? Absolutely.
    I still believe that there is information that is not being 
shared effectively and, quite often, that information is about 
U.S. persons, which is appropriately the most protected set of 
information; and the Congress and the Executive branch must 
ensure that that information is effectively shared. So, as the 
professor very ably said, you can get second and third opinions 
and you aren't simply forced to take the views of one operator 
or one analyst about whether or not someone is a threat.
    Mr. Keating. Mr. Winter, could this still happen today?
    Mr. Winter. Absolutely. I agree with Mr. Leiter, the closer 
the circumstances to those of the Hasan matter the less likely 
it is to happen because of the policy changes, because of the 
higher sensitivity to these types of issues.
    For example, however, two of our recommendations concern 
the FBI putting into place a clearinghouse process by which--
which it currently has with DOD--by which it advises DOD 
through headquarters and through the National Joint Terrorism 
Task Force about investigations of DOD personnel in the 
military. We recommended that similar clearinghouse procedures 
be adopted for law enforcement agencies, whose Members may have 
equal if not greater access to weapons and intelligence than 
military members and also as to other departments of the 
Federal Government.
    So that if someone at the State Department is under 
investigation there is a mechanism in place for the 
investigating officers to move that not only up the FBI chain 
of command but also move it to the State Department chain of 
command and their investigators so that all the individuals can 
work together to detect and deter the potential for terrorism.
    However, obviously, outside of Government hierarchies, the 
possibilities for individuals like Major Hasan to take these 
kinds of actions exist; and it is difficult for the FBI to have 
constant knowledge of the whereabouts and intent of those types 
of individuals.
    Mr. Keating. One thing that--I wasn't going to ask this, 
but you sparked this interest. I have asked it of General Barry 
McCaffrey before. That initial information, getting to whether 
it is local or State officials usually, how is that inhibited 
by not having a comprehensive immigration policy in the State? 
If people see things, if people want to come forward, how are 
they going to come forward if they are going to effectively 
make themselves criminals? How weak is that in the initial 
information?
    Mr. Winter. That is something that is slightly beyond my 
pay grade, sir. I would try to answer in this fashion, however.
    The FBI has in place what is known as an eGuardian system, 
which is an electronic version of its Guardian system, by which 
individuals who bring information to local law enforcement 
agencies, let's say, even anonymously, tips and the like, can 
be forwarded on immediately and promptly by electronic means 
and acted on by FBI agent reviewers and analysts, I should say, 
within a very short period of time.
    Mr. Leiter. Congressman?
    Mr. Keating. Assuming they did that.
    Yes, Mr. Leiter.
    Mr. Leiter. I think interaction with immigrant communities 
is critical. In the counterterrorism context, obviously what we 
are most focused on is American Muslim communities, which may 
or may not be immigrant communities. But engagement by the FBI, 
the Department of Homeland Security, Immigration, a wide range 
of agencies and State and local officials with American Muslim 
communities is absolutely critical to occur not just for law 
enforcement intelligence but for good Government and 
engagement.
    I will say that Congress has an important role in that 
regard, that when the FBI does engage these Muslim communities 
that they are not immediately second-guessed about which 
Muslims they talk to. It is very important for them to have 
wide engagement to understand these communities and potentially 
identify individuals who have been radicalized. In my view, the 
Congress has to give the Executive branch reasonable room to 
maneuver to do that engagement to find problem areas.
    Ms. Manji. May I add something of my own in this regard?
    Mr. Keating. Just briefly, yes.
    Ms. Manji. Sure.
    Of course, engagement with communities of all kinds is 
necessary for good governance. The problem is that, too often, 
especially in this country, we stumble over ourselves to try to 
identify who are the moderates and who are the extremists. I 
would argue to you gentlemen that this is the wrong 
distinction.
    The better distinction to make, if you want to really get 
at the heart of the matter, is who are the moderates and who 
are the reformists. Moderates, for example, don't much differ 
from extremists in that moderates are so consumed with what 
they perceive to be Western imperialism, Israel, America, so 
forth, that they have distracted themselves from dealing with 
the imperialism within their communities, those clerics, those 
imams, and even those supposedly secular civil leaders who 
insist that good Muslims remain silent when crimes such as 
honor killings happen within their communities.
    So we need to ensure that we get the framing here right if 
you are actually going to hear people who are willing to step 
forward. But they are not going to be willing to step forward, 
Congressman, unless they know that you have got their back. 
Because they know what backlash is coming their way by virtue 
of having opened their mouths.
    Mr. Keating. Thank you. Thank you.
    I just want to get back to the process itself, too.
    One of the things that you said, Mr. Leiter, that concerned 
me, is--because we hear it all the time in this committee in 
particular in different shapes and forms--but you used the word 
the necessity of having a National system versus a patchwork 
system. To me, we could have the greatest information in the 
world coming forth. If we don't have a way to process that on a 
National basis--can you really talk more specifically about 
what you meant when you said that? I mean, how far along----
    You know, all of DHS is patchwork, as far as I am 
concerned. It is amazing that we haven't gone past 
jurisdictional issues and done some of these things yet. But, 
to me, that has to get fixed first.
    Now, I know we have budgetary issues in front of us. But if 
that is not fixed and that is not a priority, what good does 
all this gathering of information, what good is it?
    So when you said that, you know, I think that is a priority 
that we have to have. What budgetary issues are confronting 
that and what actual technology issues or interaction issues 
with different levels of intelligence? Expound on that.
    Mr. Leiter. Congressman, absolutely. We obviously, as both 
you and the Chairman know well as attorneys, we live in a very 
Federated system. As we built up these State and local fusion 
centers with hundreds of millions of dollars, that information 
is being collected at the local level and, to some extent, 
shared with Department of Homeland Security and the FBI through 
the JTTFs. But what we have not done is created a system where 
you can actually effectively compare that information across 
State and local fusion centers, across JTTFs.
    Now, I think the FBI took a very, very valuable step in the 
past year, which is to move toward a regionalized structure. 
Because I don't believe that you can have any system with 104 
JTTFs and 50-plus fusion centers and actually see correlations 
quite effectively. So a regionalized intelligence structure, 
where you have I believe it is six or eight regions that are 
looking at the various State and local fusion centers and JTTFs 
and seeing where there is suspicious activity or where there is 
a FISA intercept of import. Then having those cases managed by 
the FBI headquarters, in coordination with DHS, that starts to 
look like a system.
    As you see that and as that information is shared within 
the Federal family, with the National Counterterrorism Center, 
with Homeland Security, who is specializing on borders, using 
their collection resources, and ICE and Customs and Border 
Protection, you start to understand how you can close these 
gaps and, as you so eloquently stated at the beginning of your 
questions, try to avoid this from happening in the future.
    As budgets go down, weaving this together will be more 
difficult. But absolutely the technology exists today to make 
sure that some of those less understandable correlations are 
seen both at the State level, at the local level, and 
ultimately at the Federal level for some of these cases.
    Mr. Keating. Just a last quick question of yourself and Mr. 
Winter. Would you say that is among the top priorities right 
there in having that occur?
    Mr. Leiter. Yes.
    Mr. Winter. I absolutely agree. That was the first of our 
information technology recommendations to the FBI, enterprise 
data management.
    Mr. Keating. Thank you very much. I yield back.
    Mr. McCaul. Thank the Ranking Member.
    The gentleman from South Carolina, Mr. Duncan, is 
recognized.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for this very 
timely hearing.
    You know, the State Department had warnings at least 48 
hours in advance of the 9/11 attacks that happened this week, 
yet they did not go in lockdown in certain embassies where the 
threats were. The reason I say that is a lot of times we are 
given very, very clear signals, staring us in the face, and we 
fail to act on those.
    Or many times we lean back on political correctness. As 
Professor Manji pointed out, the religious symbolism, the 
Operation Badr, they didn't even want to discuss the real 
ideology behind a certain terrorist attack, the fact that we 
have here in America taken to calling the Fort Hood a case of 
workplace violence, yet we will call what happens in Wisconsin 
an act of domestic terrorism.
    I am alarmed and really want to raise awareness here in 
this committee of some of the things that I hear going on 
within our Pentagon and within the military, where servicemen 
and women are discouraged from pointing out things that they 
see such as what happened at Fort Hood with SOA on the card, 
and just signals that are very clear for people that are going 
through their daily routine that should raise a red flag for 
us. But yet they are scared they are going to be labeled as an 
Islamophobe.
    I think when we have hearings within this committee 
addressing Fort Hood or addressing the radicalization of Muslim 
youth, it is not an address of Islam, it is more of an address 
of an ideology that is really encouraging folks that practice 
Islam as a religion to embrace a certain set of ideals and 
ideological values that lean more toward the attacks that we 
see. I think that is what happened. Major Hasan was caught up 
in that.
    But, as Americans, we can't be afraid to speak out. I want 
to thank the professor for having the courage, the moral 
courage to speak about those differences--that is what I heard 
today--about the difference between Islam and your practice of 
the Islamic religion, but also the fact that, you know, there 
are some folks that do practice that religion who have gone in 
another direction in another part of their life in their 
political ideology and what their world vision is.
    So one thing I want to ask all of you is, following the 
findings and recommendations of the Webster report on the Fort 
Hood attacks, how would you categorize the attack that occurred 
at Fort Hood? Mr. Winter.
    Mr. Winter. We discussed this question at length. I speak 
for the Commission and our unanimous view. Our view was that we 
saw evidence but we did not have the opportunity to investigate 
on a criminal basis, as the U.S. military is doing, and so we 
don't know----
    Mr. Duncan. Let me ask this question a different way. 
Workplace violence or domestic terrorism?
    Mr. Winter. I have heard that, both of those 
characterizations. We refused to reach a finding on that. I 
have to say the reason is that we don't have the evidence 
sufficient to know. We don't know what kind of standard 
Department of Defense is applying.
    Certainly our investigation was not into Department of 
Defense activities; and it was not into the criminal 
investigation itself, which was to a great degree hands-off to 
us because the military is pursuing that criminal case against 
Major Hasan. So we were unable to reach a decision on those 
issues. We do believe and really would like to see justice done 
for the victims, their families.
    Mr. Duncan. I am going to end this dance.
    Professor Manji.
    Ms. Manji. Domestic terrorism, home-grown.
    Mr. Duncan. Thank you.
    Mr. Leiter.
    Mr. Leiter. Congressman, the analysts at NCTC within a 
week, as I said, deemed it to qualify as an act of 
international terrorism under our statute that we use. It was a 
subgovernmental group, political violence. We called it 
terrorism then; I call it terrorism today.
    Mr. Duncan. Okay. I want to refer back to the Chairman's 
opening statement. The men and women that stood at Fort Hood at 
that ceremony, ones that were wounded in that attack, the 
families of the victims of that attack will tell you to this 
day this was an act of domestic terrorism in the war against 
terrorism. I think we as America need to set aside political 
correctness and really be able to discuss the real threats, 
existential threats to our way of life.
    With that, Mr. Chairman, I yield back.
    Mr. McCaul. Thank the gentleman.
    The gentleman from Illinois, Mr. Davis, is recognized.
    Mr. Davis. Thank you very much, Mr. Chairman; and I 
certainly want to thank the witnesses for their participation 
and especially for their insights and their answers.
    I was thinking that, you know, we can always know what 
happened because we have the information. It is obviously far 
more difficult to determine why it happened or the causes that 
may have generated or caused it to take place.
    Mr. Winter, let me ask you, if I could, you indicated that 
policies are that investigators and agents have 90 days to work 
on leads and that sometimes individuals have more call for 
activity than time or there is not enough personnel, there are 
so many leads and trying to follow up on all of them. Are there 
thresholds that will jump out at you? I mean, if you are 
reviewing tips and information and allegations, that a person 
can just kind of see that this appears to be over the line and 
we need to try and check it out as quickly as we can?
    Mr. Winter. Yes, there is a significant amount of training 
on many different levels on how to deal with tips, information, 
intelligence of different kinds. Here the San Diego agents 
recognized that the messages deserved some form of action. 
Under FBI policies that then existed, they could set what was 
called a routine discretionary action lead because it was not--
there was no indication of anything imminent, something that 
required a 24-hour or 48-hour response. That meant it was a 
routine lead, which would be resolved in the ordinary course of 
business. It also meant that the WFO would exercise its 
discretion on how to handle the lead.
    The 90-day period that was in existence was an informal FBI 
practice at that time. We have, of course, recommended that the 
FBI establish periods within which leads must be acted upon. 
The FBI in turn has also eliminated these discretionary action 
leads and has required action on all leads that are sent out 
from other offices.
    Mr. Davis. Let me ask each one of you if you think that we 
do as well as we possibly could in making assessments of 
individuals when they are going to be placed in certain kinds 
of positions relative to evaluation as people seek employment, 
as people take assignments and have access to certain kinds of 
opportunities. Do we assess their personalities or do we glean 
enough information where it gives a comfort level in terms of 
where they are and what they might be doing?
    Mr. Leiter. Congressman, I will answer on two pieces.
    First, I think we probably all as bosses have interviewed 
someone, given them a job. They had glowing recommendations, 
and then they come and work for you and the performance ain't 
so glowing. So this is a pretty broad problem. Obviously, the 
manifestation in this situation is absolutely tragic.
    The second piece, though, more specific to terrorism, is 
the FBI does have an incredibly difficult job of distinguishing 
those people who were radicalized and have radicalized views 
and those who become mobilized and actually take a terrorist 
action. Again, that is why you want people to go out and 
interview them and try to make that determination.
    But, frankly, the FBI, with all its resources, if you used 
everyone in the Federal Government, they couldn't watch 
everyone who was just, ``radicalized.'' They have got to 
prioritize. Making that determination is very hard before the 
fact and looks very, very easy after the tragedy.
    Mr. Davis. Or even people who might seek to become members 
of the FBI to be in a position to carry out their ultimate aim.
    So all I am really seeking is opinion. I know that it is 
tough trying to deal with motivation all of the time. I mean, 
if we could answer that, we would be in very good shape.
    Ms. Manji. Congressman, if you will allow me one quick 
intervention, I have written exactly about this question of 
what to ask in order to conclude within the Muslim communities 
of this country where people stand on the continuum of reform, 
moderation, extremism; and I would be very pleased to submit to 
the committee the specific questions that I recommend be asked.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. McCaul. I thank the gentleman.
    Just let me close by--first, let me thank you for this 
excellent testimony. I agree with you, Mr. Leiter, that the 
FBI, JTTFs have an enormous challenge. So much information is 
coming through, and you miss one thread and then you are held 
accountable.
    I think this case, though, I would make the argument is a 
little different. You have got a major on a base, Fort Hood, 
who is talking to a cleric, who there was some evidence may 
even have had ties to the 9/11 hijackers, for God's sake, and 
he is really rising in stature to becoming the No. 2 in the 
world, next to bin Laden.
    I think, unfortunately, WFO only gets two emails. They 
don't get the May 31 email that clearly outlines what his 
intentions are and what he is planning to do.
    You are right, Professor, San Diego has it, though; and 
they have DOD employees on these task forces. You know, why 
didn't one of those at least contact Fort Hood? Why didn't 
anybody contact Fort Hood and say, you know what, there is an 
issue here? You got a problem. You got a guy that could 
actually kill somebody, you know.
    I don't think any of you really have the answer to that. I 
don't have the answer to that. It is just unfortunate that it 
didn't happen in this case.
    So with that, again, we thank you for your brilliant 
insight and your excellent testimony; and I will dismiss this 
panel, move onto Panel No. 2. Thank you.
    [Off the record for a few minutes.]
    Mr. McCaul. Our Government witness requested to be on a 
separate panel all by himself.
    Let me introduce Mr. Kshemendra Paul, who is the program 
manager for the Information Sharing Environment at the Office 
of the Director of National Intelligence. As program manager, 
Mr. Paul has Government-wide authority to plan, oversee the 
buildout, and manage use of Information Sharing Environment. He 
also co-chairs the White House's Information Sharing and Access 
Interagency Policy Committee.
    The Chairman now recognizes Mr. Paul for his testimony.

  STATEMENT OF KSHEMENDRA PAUL, PROGRAM MANAGER, INFORMATION 
    SHARING ENVIRONMENT, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Mr. Paul. Chairman McCaul, Ranking Member Keating, 
distinguished Members of the committee, thank you for inviting 
me to testify today.
    My is Kshemendra Paul. I am the program manager for the 
Information Sharing Environment. By training and profession, I 
am an information technologist. Formerly, I was the chief 
architect of the Federal Government.
    My office works with mission partners--Federal, State, 
local, Tribal, private sector, and internationally. Together, 
our focus is on the improvement of the management, discovery, 
fusing, sharing, delivery of, and collaboration around 
terrorism-related information.
    The role of my office is planning, oversight, and 
management. We span a variety of communities--law enforcement, 
homeland security, defense, foreign affairs, and intelligence.
    As my office and our partners continue to implement 
responsible information-sharing practices, we reflect on the 
progress we have made across the Nation, as well as recognizing 
that work remains.
    In January, Director Clapper spoke of a National 
responsibility to share information. He encapsulated our 
vision. He said, and I quote, ``The right data, anytime, 
anyplace, usable by any authorized recipient, preventable only 
by law and policy and not technology and protected by a 
comprehensive regime of accountability.''
    This week, we marked the 11th anniversary of the 9/11 
terrorist attacks. The National security community has achieved 
numerous successes. As they pertain to my office, these include 
improving interoperability of our sensitive but unclassified 
networks, enhancing the capabilities of the fusion centers, 
State and local fusion centers, expanding the mission 
application and the impact of the Nation-wide Suspicious 
Activity Reporting Initiative, strengthening industry and 
Government adoption of our interoperability and standards 
framework, including the National information exchange model, 
and, finally, integrating our non-Federal stakeholders, in 
particular State and local law enforcement, into the National 
policy conversation through the interagency policy committee 
you mentioned.
    But we are not without challenges. These include the 
continuously evolving threat environment, the tsunami of data 
faced by my mission partners, and the constrained fiscal 
environment.
    My office continues to convene partners and lead efforts in 
responsible information-sharing innovation. This is a journey. 
The evolution of the threats against us, the integration of our 
resources, and the efficient use of technology require constant 
vigilance and leadership. The threats to our safety do not stop 
at jurisdictional or agency boundaries. Our information 
shouldn't either.
    Three core ideas are the drivers of the mission of my 
office. We are grounded by an enduring purpose to advance 
responsible information sharing to further the counterterrorism 
and homeland security missions. We are focused on responsible 
information sharing to enable decisions to prevent harm to the 
American people. Finally, we are building capacity for 
responsible information sharing across our mission partners at 
all levels of Government.
    We are also strengthening protections for privacy, civil 
rights, and civil liberties. This work makes us stronger.
    Let me elaborate. Every fusion center in our country has a 
privacy policy as comprehensive as Presidential privacy 
guidelines. The bulk of Federal departments are in the same 
position, and we are well on the way to finishing the job here 
in Washington. This means that when citizens see something and 
say something, when police officers submit reports to fusion 
centers and Joint Terrorism Task Forces, when analysts work to 
connect the dots, the work proceeds across agencies and levels 
of government in a standardized and efficient manner that 
handles information appropriately and responsibly.
    Gaps, challenges, and opportunities for improvement exist. 
We have traction, a clear and compelling value proposition, and 
a way forward to continue to accelerate responsible information 
sharing. You have our comprehensive annual report; and, for the 
record, it is located on our website, ISE.gov.
    In summary, I believe there is no higher priority in the 
nexus between National security and public safety than 
responsible information sharing.
    On a personal note today, as we talk about the attacks at 
Fort Hood and also reflect on recent events overseas, I just 
want to say that my thoughts and prayers go out to the victims 
and their families.
    Mr. Chairman, Ranking Member, thank you for the opportunity 
to be here, and I look forward to your questions.
    [The prepared statement of Mr. Paul follows:]
                 Prepared Statement of Kshemendra Paul
                           September 14, 2012
                              introduction
    Chairman McCaul, Ranking Member Keating, and distinguished Members 
of the subcommittee, I am Kshemendra Paul, the program manager for the 
Information Sharing Environment (ISE). We are the National office for 
responsible information sharing. The ISE provides analysts, operators, 
and investigators with information needed to enhance National security. 
These analysts, operators and investigators come from a variety of 
communities--law enforcement, homeland security, intelligence, defense, 
and foreign affairs--and may work for Federal, State, local, Tribal, or 
territorial governments, or in the private sector or our international 
partners. The PM-ISE works with ISE mission partners to improve the 
management, discovery, fusing, sharing, delivery of, and collaboration 
around terrorism-related information. The primary focus is any mission 
process, anywhere in the United States, that is intended or is likely 
to have a material impact on detecting, preventing, disrupting, 
responding to, or mitigating terrorist activity. The PM-ISE facilitates 
the development of the ISE by bringing together mission partners and 
aligning business processes, standards and architecture, security and 
access controls, privacy protections, and best practices.
                               statement
    As PM-ISE and our mission partners continue to implement 
responsible information-sharing practices, we reflect on the tremendous 
progress made toward our goal, while recognizing that significant work 
still needs to be done. In January, Director of National Intelligence 
James R. Clapper spoke of the National responsibility to share 
information--``the right data, any time, any place, usable by any 
authorized recipient, preventable only by law or policy and not 
technology, and protected by a comprehensive regimen of 
accountability.''\1\ As the office responsible for organizing and 
implementing responsible information-sharing practices Nation-wide, we 
are proud of the progress we have made strengthening National security 
while also honoring and protecting privacy, civil rights, and civil 
liberties.
---------------------------------------------------------------------------
    \1\ http://csis.org/files/attachments/
120126_info_sharing_clapper_transcript.pdf.
---------------------------------------------------------------------------
    We have become much better at using our inherent strengths to make 
the American people safer. Our federated democracy means that we have 
committed law enforcement, public safety, and intelligence 
professionals working at the Federal, State, local, and Tribal levels; 
they are also working closely with partners in the private sector to 
protect our Nation's infrastructure. We have carved out a strong role 
for governance through our leadership role in the White House's 
Information Sharing and Access Interagency Policy Committee. Our robust 
and innovative private sector contributes significantly to the work of 
the ISE. And we are championing a standards-based approach to defining 
Government requirements for responsible information sharing that will 
enable greater interoperability across our Government's networks while 
offering a greater potential for cost savings.
    This week we marked the eleventh anniversary of the 9/11 terrorist 
attacks. The National security community has achieved numerous 
successes since 2001, including progress towards improving: 
Interoperability of our sensitive but unclassified computer networks, 
capabilities of our fusion centers, and mission impact of our Nation-
wide suspicious activity reporting practices. The PMISE has enhanced 
our National security by: Advancing these initiatives, brokering 
solutions between organizations with different missions, convening 
partners from inside and outside the Government, and leading 
improvements in responsible information sharing through policy, 
governance, and strategy.
    The PM-ISE is committed to continuing to convene partners and lead 
efforts in innovation. We understand that this is a continuing journey. 
The evolution of the threats against us, the integration of our 
resources, and the efficient use of technology to move our responsible 
information sharing agendas forward requires constant vigilance and 
leadership.
    Three core ideas are the drivers of PM-ISE's mission. We are:
  <bullet> Grounded by an enduring purpose to advance responsible 
        information sharing to further the counterterrorism and 
        homeland security missions. We must stay focused on the fact 
        that we are sharing information in order to keep the American 
        people safe.
  <bullet> Leading a transformation from information ownership to 
        information stewardship in order to improve Nation-wide 
        decision making. We must treat information held by the 
        Government as a National asset: This means it must be used, and 
        reused, to benefit the American people. Information must be 
        protected and cultivated to ensure that we get the maximum 
        value from it. At the same time, strong protections for the 
        privacy, civil rights, and civil liberties of the American 
        people must be safeguarded.
  <bullet> Promoting partnerships across Federal, State, local, and 
        Tribal governments, and the private sector, as well as 
        internationally. By building organizational capacity at every 
        level, we will share information more securely and effectively. 
        The threats to our safety do not stop at jurisdictional 
        borders; our information must not either.
    We have also strengthened privacy, civil rights, and civil 
liberties protections by developing privacy guidelines, on behalf of 
the President, and supporting Federal, State, and local agencies as 
they develop privacy policies that are at least as comprehensive as the 
ISE privacy guidelines.\2\ This means that when citizens see something 
and say something, and when police officers submit reports to their 
local fusion centers, they all know that the information will be 
handled appropriately. It means that when analysts conduct their 
evaluations, they will proceed in a manner based on agreed-upon 
definitions of behaviors that are indicative of terrorist activity, and 
that their investigations will not be based on race or religion. It 
means that the American people can know that their Government is 
committed to protecting their privacy, civil rights, and civil 
liberties, as well as their security.
---------------------------------------------------------------------------
    \2\ Guidelines to Ensure that the Information Privacy and Other 
Legal Rights of Americans are Protected in the Development and Use of 
the Information Sharing Environment (``ISE Privacy Guidelines'') 
(November 2006) available at http://ise.gov/sites/default/files/
PrivacyGuidelines20061204_1.pdf.
---------------------------------------------------------------------------
    While we focus on the accomplishments and the progress to date on 
numerous fronts, we maintain a sense of urgency about tackling the work 
that remains to be done. The biggest challenges facing the ISE are the 
continuously evolving threat environment, the tsunami of new data, and 
a constrained fiscal environment. As the ISE grows and its work deepens 
and expands, we need to continue to assess and adjust for current 
realities--allowing us to be well-positioned for dealing with future 
threats and exploiting opportunities.
    These challenges and opportunities present a framework within which 
to rethink the ISE and our approach to responsible information sharing. 
We see great potential in leveraging our advances and building from the 
terrorism-related mission to more broadly support information-led 
public sector transformation. Recognition of the enduring value of the 
ISE lies in the ceaseless needs of the mission and the variety of 
continued successes that have been spawned by our work. The 2012 ISE 
Annual Report to the Congress showcases many of these accomplishments 
and lays out our way forward. While gaps, challenges, and opportunities 
for improvement are present and described, we have established 
traction, developed a clear and compelling value proposition, and 
identified a way forward.
    We are fulfilling the mission set out before us, and we are 
enhancing our National security through responsible information 
sharing. We will continue to fulfill this mission and to identify and 
meet new challenges as they arise.
    More information about the Information Sharing Environment and the 
office of the Program Manager is available at ISE.gov.
                                summary
    I believe there is no higher priority for our National security 
than the issue of information sharing. Congress has provided us the 
mandate through legislation; the President has provided us the 
leadership and further guidelines; we continue the work of transforming 
our information-sharing environment into one that works more 
effectively for all.
    Thousands of men and women work tirelessly to protect this Nation 
from terrorist threats. It is important for us to provide them and 
other decision makers with the best possible information to do their 
job to protect the people and interests of the United States against 
another terrorist attack.
    Mr. Chairman, I appreciate the opportunity to provide this 
subcommittee with information on the activities of the Program 
Manager's Office and look forward to your questions. Thank you.

    Mr. McCaul. Thank you, Mr. Paul, and thank you for 
recognizing the importance of information sharing, fusion 
centers.
    Mr. Keating, my Ranking Member, we both worked with fusion 
centers. Sometimes they are given a bit of a bad name, and I 
think that privacy protection piece is important to preserve 
the integrity of the work that they are doing and to make sure 
that privacy interests are protected.
    So, with that, I again want to focus back to what this 
hearing is all about, and that is Fort Hood.
    Now, my question may go outside of your expertise or 
ability to comment. But, again, in this case I think you had a 
huge breakdown in information sharing, not only between the FBI 
within itself but also with the Department of Defense. If you 
can speak to these issues, I would like to know how to fix 
this.
    First, you have got an agent sitting at WFO who sits on 
this matter for the maximum amount of time possible, looks at 
the lead on the very last day. I understand the FBI is swamped. 
They have a lot on their plate. But when you have a major at 
Fort Hood who is the subject matter, I think that would take a 
little higher priority. But they wait until the very last day 
and within 4 hours make an analysis based upon two of 18 emails 
because this analyst doesn't know how to access the database 
that would give him the other 16 emails, one of which, as I 
mentioned previously, telegraphs what he is getting ready to 
do. So you have got that breakdown.
    Then, you know, finally, within these task forces you 
actually have Department of Defense representatives. Why on 
either side, both from Washington or San Diego, in your 
opinion--and maybe you can't speak to this--but why didn't one 
of those DoD representatives on the JTTFs contact Fort Hood and 
say, you got a problem?
    Mr. Paul. Commenting on the specific operational aspects of 
Fort Hood are a little bit outside of my lane.
    But what I would like to come to is some of the comments 
that were discussed on the earlier panel that relate to this 
question, things like doing a better job of enterprise data 
management. That was a key recommendation coming out of the 
Webster Commission. It is a key focus of my office, all right. 
There is a recognition, this goes back to the 9/11 Commission, 
a series of seminal reports from the Markle Foundation that is 
codified in the Intelligence Reform and Terrorism Prevention 
Act. It is really the mandate for my office. It is to drive a 
better job of enterprise data management so we can knit 
together all the different aspects of National and public 
security to keep the American people safe.
    I mean, think about 800,000 police officers in this 
country. The bulk of law enforcement is State and local, 18,000 
police departments. Knitting that together into a coherent 
National architecture requires a focus on common processes, 
policies, and data standards.
    We have had success with that, actually. I mentioned in my 
opening comments about the National information exchange model. 
What is not widely understood is that originated with State and 
local law enforcement. It is actually a State and local 
innovation that we have adopted at the Federal level as the 
basis for our counterterrorism data sharing enterprise.
    So I think, you know, the focus on knitting together all 
these different components into a coherent architecture really 
is the key.
    Mr. McCaul. You know, as somebody who has worked on the 
FISA applications, I understand the restrictions when a FISA is 
out there, like in this particular case with Mr. al-Awlaki. I 
think there is so much apprehension when you get in the FISA 
world and so many restrictions, legal restrictions, that that 
may have been counterproductive and may have gotten in the way 
of these Department of Defense employees or officials sharing 
this information with Fort Hood, which is something that the 
Ranking Member and I would like to maybe look at jointly as to 
if we have to reform it or somehow just have some sort of 
reporting language that would clarify that that can be shared.
    I can't imagine why, if the Federal Government has this 
information within its hands, it can't share it with the United 
States Army, United States military, you know, on one of its 
bases. To me, that is just incomprehensible.
    So I thank you for your testimony.
    With that, I recognize the Ranking Member.
    Mr. Keating. Thank you, Mr. Chairman.
    Mr. Leiter and Mr. Winter had said that although the 
chances would have been less likely, the circumstance, this 
tragedy at Fort Hood could indeed occur again today. Could you 
reflect on your thinking whether it could occur today?
    Also, what would you give for your recommendations to try 
and not have--the greatest legacy we can give to these families 
that have lost loved ones are--I think the greatest legacy is 
that this wouldn't happen again to another American. Could you 
comment on what you think in that regard?
    Mr. Paul. It is difficult to answer a hypothetical about 
the specific events that occurred at Fort Hood. But what I will 
say, and I will highlight the Nation-wide Suspicious Activity 
Reporting Initiative, you know, one of the things that we are 
really successful on with this initiative is being able to 
bring together a lot of different voices across levels of 
government, and outside the Government, to identify a process 
for doing suspicious activity reporting that addressed privacy, 
civil liberties concerns, but also operational effectiveness. 
Through that process, we were able to identify 16 behaviors 
reasonably indicative of terrorism-related activity or pre-
operational criminal planning. So that functional standard is 
in place Nationally now.
    You know, coming back to the question about policy or 
things like that, when we started that journey a lot of folks 
were concerned that we wouldn't be able to rationalize how 
folks looked at these kinds of issues because of the levels of 
government and the privacy issues. But we were able to work 
through those successfully, all right. So I think there is a 
model there, and I go back to that as----
    To answer your question about, you know: What is the 
highest priority? From where I sit, accelerating responsible 
information-sharing practices, as championed by my office, you 
know, is a real part of the answer in terms of dealing with the 
enterprise data management issues that were highlighted, 
dealing with the jurisdictional issues, dealing with the 
cultural issues, I think just accelerating the work.
    Mr. Keating. The other thing that Mr. Leiter mentioned is, 
when we were talking about a patchwork system versus a National 
system, he referred to having six regional areas perhaps as an 
approach that would be effective. What do you think in terms of 
that?
    Because I do think the more you have it under one roof, so 
to speak, even though it might be an IT roof, the more that is 
there the better off we are. His reference to having six 
regional areas as sort of a better step than we have now in 
this patchwork quilt, do you think that would be effective as 
well? I mean, you are dealing with getting the same message, 
but the process by which it is reviewed and shared is the 
issue, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d495252137d">[email&#160;protected]</a>
    Mr. Paul. You know, the Information Sharing Environment by 
design, by statute is a distributed and decentralized 
environment that interconnects existing systems. So the focus 
we have is on interoperability but not just at the technical 
level. It is not about pipes and things like that. That is an 
important component, but it is more. It is interoperability at 
the policy level, the business process level. So we think it is 
key to keep that focus on interoperability so that you can 
seamlessly share the information.
    Now, the FBI approach on regionalization, that is a focus 
on coordinating Federal activity, which I think is a good 
thing. It is something we have heard from our State and local 
partners. It is something that we are working through the 
different governance structures.
    Mr. Keating. I will just ask you this, too. We had a 
hearing in Houston, actually, on the Port of Houston and 
security. One of the things that came out of that was the need 
for the first line, the need for local police to be there and 
to be really one of the most important flash points in terms of 
information.
    I must tell you, it is just my feeling, that of all the 
areas, we are talking about all the higher governmental areas, 
Department of Defense, FBI, I just don't see enough effort or 
enough success at that local level, the front line. Sometimes 
that information can be just the catalyst to spring the network 
of information that really will tell us something. What are 
your recommendations to really do a better job at the local 
level of having them be part of that information network?
    I know there is agencies that don't want to go down to that 
level for fear that some of that information might be breached. 
But the other side of that is, without sharing that information 
at the local level, you could really lose probably the most 
important information that you could have in front of you in 
the most time-sensitive way.
    Mr. Paul. You know, we have had some success as a 
Government with the National network of fusion centers and 
their increasing maturity. Those efforts are led by DHS with 
close involvement from FBI--integral involvement from FBI, and 
DOJ, and other Federal agencies.
    I talked about the SAR initiative before. Three hundred 
thousand police officers in this country have been trained. It 
is the first time that I know of where these police officers 
have been through the same training. It was around the 
behaviors I mentioned earlier.
    So there is some success that way. It's at risk right now 
because of the fiscal situation, right?
    This goes to--you know, to answer your question, when I 
talk to my State and local stakeholders, that comes back loud 
and clear. When you look across that landscape, 18,000 police 
departments, 90 percent of which have 50 or fewer sworn 
officers, there is a real concern about the smaller 
departments, which make up the bulk of law enforcement, how to 
integrate them in the National architecture. So a focus of our 
office and working with our stakeholders is to look at 
solutions like regionalization, you know, that is controlled by 
States, or State-wide information-sharing environments, or co-
location. All right. There is a variety of different 
approaches, and they are talked about in the annual report.
    But I think thoughtful solutions like that to help bring 
people together to have a common information infrastructure are 
a key part of dealing with this financial issue as well as 
knitting together the smaller departments into a National 
architecture.
    Mr. Keating. So, just to be clear, you are hearing from the 
local stakeholders that they are saying that if there was, for 
instance, Federal money that could go to that kind of training, 
then they would be more apt to participate and then be a part 
of this, you think, from their vantage point?
    Mr. Paul. When I talk to the State and locals and the 
Federal, there is a key focus on making sure that as we have 
these investments today, right, in the fusion centers and in 
other initiatives that we are looking at making them as 
effective as possible by expanding the usage of them with the 
smaller agencies and also looking at, over time, other priority 
crimes, other priority threats that allow then the business 
case to be made more effectively for these and to develop 
support for them.
    Mr. Keating. Okay. Thank you. I yield back.
    Mr. McCaul. The gentleman from South Carolina, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Paul, thank you for your work. Your vision and your 
goal for information sharing that will help prevent future 
attacks on this country and just help law enforcement in 
general and mine are similar, are shared, really. So I thank 
you for the work.
    In subsequent hearings or past hearings, we have talked 
with all the agencies, DHS, State, about information sharing 
between those agencies. Some of the things that I have learned 
is that if someone--and I will use the case of maybe a visa 
overstay, and DHS was looking into someone who may or may not 
overstay their visa and investigate the background of that 
person. Sometimes they have to come out of one database or 
system and actually log into another and come out of that 
system and actually log into another. I even heard that an MS-
DOS-type program or database is still being used. I hadn't even 
heard the word DOS in so many years that that kind of caught me 
by surprise.
    But they are all passwords, entry level. So instead of 
having one password or one biometric system where one person 
could enter one time and get in all the databases that they 
need, they are having to remember all the different passwords. 
That gets frustrating, and they end up not doing a complete 
search because of the frustration level.
    So I just share that with you, because I think you need to 
know that. That is what I am hearing from people that currently 
work in the different levels of government.
    In your prepared statement, you talked about the 
transformation of information ownership to information 
stewardship, which I think that is a very valid point. Do you 
believe we have reached that point of information stewardship? 
In my experience, there are still holdouts today, 11 years 
after 9/11, 3 years after Fort Hood, where folks refuse to 
partner or share their information. They still consider they 
have got ownership of that, and they really don't want to share 
it for whatever reason, whether they want to hold themselves up 
to their superiors as the person in the know or the person that 
has the ability to move up in the ranks. We see that in the 
private sector as well. How do we overcome that? Are we 
overcoming that? What do you foresee in the future?
    Mr. Paul. Thank you. That is a focus of the work of my 
office, and I appreciate you mentioning the stewardship focus. 
It has taken us a long time as a Government to develop the 
siloed structures, the programmatic structures, and we have 
lots of policies around information that is based on classes of 
information and that is specific to agencies or bureaus.
    The vision that I talked about that Director Clapper talked 
about is more focused on policy around classes of decisions. 
The Markle Foundation called it an authorized use standard. It 
is a big job to look at the body of policy we have and how do 
we transition it to making decisions about information sharing, 
discoverability, and things like that based on the classes of 
decisions. It requires the technical infrastructure, right, 
with networks that are secure, where identity management works 
across these networks, across different organizations, across 
different levels of government, where we have more consistency 
in how we implement policy in the computer systems.
    This is a lot of work. It is a big journey in front of us.
    We have had some successes. You know, one that I will 
mention is related to the watch list that Mr. Leiter was 
talking about earlier is a success. When somebody gets stopped 
by State and local law enforcement and there is a hit on the 
watch list, we have a process now where that information gets 
back to the local fusion centers and the Joint Terrorism Task 
Forces in a timely manner. All right. So that is important 
again to bring in State and local law enforcement into having 
that situational awareness of what is going on in their 
communities.
    So there is more processes, more work to do, but it is a 
valid point, and it is where we are headed is the stewardship 
focuses.
    Mr. Duncan. I applaud the fusion centers. I see it as the 
first platform, as long as those platforms are integrated to 
talk to the higher platforms, so that the higher-up authorities 
have the ability to go to one platform and be able to Google, 
so to speak--to use that term not necessarily, that company--
but your name and find out everything that someone at a 
decision-making level needs to know about you. So I applaud 
your work.
    I appreciate this committee, the questions that have been 
raised here. Mr. Chairman, I really don't have anything else.
    Mr. McCaul. I thank the gentleman.
    The gentleman from Illinois, Mr. Davis, is recognized.
    Mr. Davis. Thank you very much, Mr. Chairman; and thank 
you, Mr. Paul, for your testimony.
    Government-wide there have been challenges to the 
development of unclassified and classified systems of 
information sharing. In particular, DHS has had problems in the 
past developing and deploying these information-sharing 
systems.
    Let me ask you, how will the recent round of cuts to the 
budget impact development of some of these systems? How can we 
make sure that they are developed and get to the State and 
local and Tribal governments that need them?
    Mr. Paul. It is difficult for me to comment on the cuts 
specific to DHS, but I do want to highlight that DHS, with 
their classified network, the HSDN system, has connectivity out 
to the fusion centers, and they have been making some stellar 
progress with the HSIN system, Homeland Security Information 
Network.
    We are also doing a lot of work to drive interoperability 
across DHS's HSIN system, FBI's LEO--Law Enforcement Online--
the IntelLink system out of the intelligence community, and 
also the grant-funded, State-owned Ris.Net.
    So that is a core initiative of the office, is to have 
interoperability. Our philosophy--there is no wrong door. When 
you are in a fusion center, working in a police department, 
line law enforcement, you can get into these systems and find 
the information.
    We have made progress, as I talked about in the Annual 
Report, but I don't want to overstate that. There is still a 
lot of work to do there.
    We do think that having consistent standards and 
architecture and working with industry to make sure that we are 
not building systems and then trying to interconnect them in a 
one-off manner, that kind of a jerry-rigged approach is not the 
right way. The right way is to have a consistent architecture 
that is used across these different systems and by our State 
and local partners and work with industry and standards 
organizations to make sure that, you know, identity management 
is done in a consistent, best practices way, that we are 
implementing access-based authorization and controls that 
people can discover information. I think that it is a 
challenge, there is more work to do, but we have made some 
substantial progress.
    I do want to highlight that key to making this progress is 
the fact that we have integrated our State and local 
stakeholders into our governance structures. We do that both--
in a variety of ways, but in particular we focus on working 
with professional associations. That gives us a big ability to 
help drive culture change, because it is bottoms-up, and it is 
inclusive.
    Mr. Davis. Let me ask you, it is my understanding that the 
eGuardian system set up by the FBI is a major part of the 
National Suspicious Activity Reporting, or SAR, Initiative and 
is the main way that State and local law enforcement can share 
information on suspicious activities with one another and with 
the Federal Government. How helpful has this system and has 
SARs in general been for Federal counterterrorism efforts? Can 
you give an estimate of how many State and local law 
enforcement SARs have led to Federal counterterrorism 
investigations?
    Mr. Paul. The Suspicious Activity Reporting Initiative is 
foundational to our domestic counterterrorism activities. It is 
a critical integral part. There is approximately 20--maybe a 
little bit more now--I can give you the precise numbers after 
the hearing--in the suspicious activity reports that have been 
vetted to the functional standards that my office has 
published. There is something on the order of 40,000 searches 
in what is called a Shared Space. That is the electronic pool, 
if you like, that the fusion centers and the Joint Terrorism 
Task Forces and other participants in the ISE use to share this 
information.
    Numerous cases have been opened by the FBI. I believe those 
numbers are for official use only, so I would like to respond 
for the record or in a different way for those numbers.
    You know, the eGuardian system is one of two technologies. 
The other is what is called Shared Space. They are 
interoperable. The important thing is they work within the 
functional standard, and there is a common process for how the 
information flows from the citizenry, from industry, critical 
infrastructure, key resource sectors, to local law enforcement, 
to the fusion centers, and the Joint Terrorism Task Forces, 
shared for analytic purposes.
    Mr. Davis. I would just suspect that the number--or that 
there would be some serious increase in the reporting of 
suspicious activity.
    Mr. Paul. There is a substantial number, a substantial 
number of investigations that are across this Nation related to 
suspicious activity reporting, either directly out of the SAR 
system or SAR-like activity. It is foundational.
    Mr. Davis. Thank you very much.
    I have no further questions, Mr. Chairman. I yield back.
    Mr. McCaul. I thank the gentleman.
    Mr. Paul, let me thank you for your testimony as well.
    I just want to conclude by saying that we have 
representatives of the victims and their family members here 
today at this hearing, and I think the Federal Government 
deserves--or should give an apology, a formal apology as to 
what happened, and should call this what it actually was. It 
was an act of terrorism, and I do believe that the families of 
the victims need to be compensated adequately and given our 
deepest respect. As for this Member of Congress and this 
committee, you have my assurance that we will do everything we 
can to make sure that that happens.
    So, with that, the hearing record will be open for 10 days.
    Without objection, this committee is adjourned.
    [Whereupon, at 11:01 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
